C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1

R E C O M M E N D E D F O R P U B LI C A TI O N
P ur s u a nt t o Si xt h Cir c uit I. O. P. 3 2. 1( b)
Fil e N a m e: 2 1 a 0 0 9 8 p. 0 6

U NI T E D S T A T E S C O U R T O F A P P E A L S
F O R T H E SI X T H CI R C UI T

U

NI T E D

ST

ATES OF

A

v.
D

W A Y NE

SHEC

KLES

,

M E RI C A

┐
│
Pl ai ntiff -A p p ell e e , │

,

│
│
│
│
D ef e n d a nt -A p p ell a nt . │
┘

>

N o. 2 0 -5 0 9 6

A p p e al fr o m t h e U nit e d St at es Distri ct C o urt
f or t h e W est er n Distri ct of K e nt u c k y at L o uis vill e.
N o. 3: 1 7 -cr -0 0 1 0 4 -1 — R e b e c c a Gr a d y J e n ni n gs, Distri ct J u d g e.
Ar g u e d: D e c e m b er 3, 2 0 2 0
D e ci d e d a n d Fil e d: A pril 3 0, 2 0 2 1
B ef or e: R O G E R S, N A L B A N DI A N, a n d M U R P H Y, Cir c uit J u d g es.
_________________
C O U NS E L
A R G U E D: K e vi n M. S c h a d, F E D E R A L P U B LI C D E F E N D E R’ S O F FI C E, Ci n ci n n ati, O hi o,
f or A p p ell a nt. L. J a y Gil b ert, U NI T E D S T A T E S A T T O R N E Y’ S O F FI C E, L o uis vill e, K e nt u c k y,
f or A p p ell e e. O N B RI E F : K e vi n M. S c h a d, F E D E R A L P U B LI C D E F E N D E R’ S O F FI C E,
Ci n ci n n ati, O hi o, f or A p p ell a nt. L. J a y Gil b ert, U NI T E D S T A T E S A T T O R N E Y’ S O F FI C E,
L o uis vill e, K e nt u c k y, f or A p p ell e e.
_________________
O P I NI O N
_________________
M U R P H Y,

Cir c uit J u d g e.

Aft er a l e n gt h y i n v esti g ati o n, t h e f e d er al g o v er n m e nt

u n c o v er e d s u bst a nti al e vi d e n c e t h at D w a y n e S h e c kl es w as a L o uis vill e distri b ut or f or a l ar g e
dr u g -tr affi c ki n g ri n g. S h e c kl es pl e a d e d g uilt y b ut r es er v e d t h e ri g ht t o a p p e al t h e distri ct c o urt’s

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 2

U nit e d St at es v. S h e c kl es

Pa ge 2

r ef us al t o s u p pr ess m u c h of t his e vi d e n c e. His a p p e al r ais es m a n y F o urt h A m e n d m e nt q u esti o ns.
T o n a m e a f e w: W h at t y p e of e vi d e n c e cr e at es pr o b a bl e c a us e t o o bt ai n a w arr a nt f or a p h o n e’s
l o c ati o n d at a aft er C ar p e nt er v. U nit e d St at es , 1 3 8 S. Ct. 2 2 0 6 ( 2 0 1 8) ? Di d a s uffi ci e nt “ n e x us ”
e xist b et w e e n S h e c kl es’s dr u g d e ali n g a n d t w o a p art m e nts t o j ustif y s e ar c h w arr a nts f or t h e
a p art m e nts ?

Di d offi c ers l a wf ull y st o p S h e c kl es’s v e hi cl e aft er h e l eft o n e of t h es e a p art m e nts

w hil e t h e y w er e i n t h e pr o c ess of s e e ki n g t h e w arr a nts ?

A n d d o es a t hir d p art y’s l a c k of

a p p ar e nt a ut h orit y t o c o ns e nt t o a s e ar c h m a k e a diff er e n c e if offi c ers l e ar n aft er t h e s e ar c h t h at
t h e p art y h a d a ct u al a ut h orit y t o c o ns e nt ? Ulti m at el y, w e f i n d n o F o urt h A m e n d m e nt vi ol ati o ns
a n d t h us affir m.
I
T h e c as e a g ai nst S h e c kl es st e ms fr o m a n i n v esti g ati o n of t hr e e ot h er p e o pl e o c c urri n g
al m ost a d e c a d e b ef or e h e arri v e d o n t h e g o v er n m e nt’s r a d ar. I n 2 0 0 7, t h e L o uis vill e offi c e of
t he

Dr u g E nf or c e m e nt A d mi nistr ati o n ( D E A)

B yr o n M a y es.

w as

m o nit ori n g a l o c al dr u g d e al er n a m e d

M a y es h a d b e e n r e c ei vi n g dr u gs fr o m t w o br ot h ers, J uli o a n d Alfr e d o “ Fr e d d y ”

Ri v as -L o p e z. Li vi n g i n P h o e ni x, J uli o w o ul d s hi p c o c ai n e fr o m M e xi c o t o Fr e d d y i n L o uis vill e.
Fr e d d y w o ul d s ell t h e dr u gs t o d e al ers li k e M a y es. T his i n v esti g ati o n l e d t o t h e s ei z ur e of m a n y
kil o gr a ms of c o c ai n e a n d h u n dr e ds of t h o us a n ds of d oll ars a n d t h e c o n vi cti o ns of all t hr e e dr u g
d e al ers.
I n 2 0 1 6, t h es e i n di vi d u als w er e o ut of pris o n. T h e Ri v as-L o p e z br ot h ers w er e li vi n g i n
M e xi c o ( Fr e d d y h a d es c a p e d fr o m a f e d er al pris o n), a n d

M a y es w as li vi n g i n L o uis vill e.

S h e c kl es c a m e t o t h e D E A’s att e nti o n d uri n g s ur v eill a n c e of a s us p e ct e d dr u g “st as h ” h o us e i n
L o uis vill e.

Offi c ers b eli e v e d t h at t his h o u s e’s “ o p er at or ” h a d b e e n r e c ei vi n g dr u gs fr o m J uli o

Ri v as -L o p e z i n M e xi c o a n d s elli n g a p orti o n t o M a y es. Aft er l e ar ni n g of J uli o’s s us p e ct e d dr u g
s hi p m e nt i n D e c e m b er 2 0 1 6, offi c ers o bs er v e d t h e dri v er of a r e d tr u c k visit t h e h o us e.

T he

li c e ns e pl at e ca m e b a c k t o a r e nt al -c ar c o m p a n y t h at h a d l e as e d t h e tr u c k t o S h e c kl es. L at er t h at
m o nt h, offi c ers e x e c ut e d a s e ar c h w arr a nt at t h e h o us e a n d s ei z e d a kil o gr a m of h er oi n a n d a b o ut
$ 2 0 0, 0 0 0. T h e p h o n e of t h e h o us e’s “ o p er at or ” c o nt ai n e d m a n y t e xts fr o m J u li o.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 3

U nit e d St at es v. S h e c kl es

Pa ge 3

Offi c ers c o nti n u e d t o m o nit or t h e Ri v as -L o p e z f a mil y i n M e xi c o. I n e arl y 2 0 1 7, t h e y
l e ar n e d t h at J uli o h a d b e e n m ur d er e d. I n J u n e, t h e y l e ar n e d fr o m a n u n d er c o v er D E A a g e nt t h at
Fr e d d y h a d t a k e n o v er his br ot h er’s b usi n ess a n d pl a n n e d t o s e n d t e n kil o gr a ms of c o c ai n e t o his
“ L o uis vill e distri b ut or. ”

Offi c ers h a d o bt ai n e d a p e n r e gist er f or Fr e d d y’s p h o n e.

Usi n g his

p h o n e r e c or ds, t h e y i d e ntifi e d t h e li k el y p h o n e n u m b er of t his L o uis vill e distri b ut or. I n J ul y, a
st at e j u d g e iss u e d a w arr a nt t o o b t ai n l o c ati o n d at a fr o m A T & T f or t h e distri b ut or’s p h o n e.
T h e offi c ers s us p e ct e d t h at t h e p h o n e b el o n g e d t o M a y es. B ut t h eir “ pi n gi n g ” of it l e d t o
S h e c kl es.

O n J ul y 7, t h e p h o n e pi n g e d at t h e T err a c e Cr e e k A p art m e nts.

Offi c ers s a w a F or d

E x p e diti o n r e nt e d b y S h e c kl es at t his l o c ati o n a n d c o nfir m e d t h at h e h a d a n a d dr ess t h er e.
T hr e e d a ys l at er, offi c ers l e ar n e d fr o m t h e u n d er c o v er D E A a g e nt t h at Fr e d d y’s d e al wit h
his L o uis vill e distri b ut or ( S h e c kl es) h a d f all e n t hr o u g h b e c a us e t his distri b ut or h a d i n v est e d i n
ot h er dr u gs. T h e offi c ers d e ci d e d t o pi n g t h e p h o n e a g ai n o n J ul y 1 1. T his pi n g t o o k t h e m t o t h e
Cr es c e nt C e ntr e A p art m e nts.

T h e y s a w S h e c kl es’s E x p e diti o n p ar k e d i n a s p ot assi g n e d t o

A p art m e nt 2 3 4.
T h e n e xt d a y, a n e m pl o y e e at t h e a p art m e n t b uil di n g n ot e d t h at s o m e o n e h a d j ust m a d e
a n a n o n y m o us c o m pl ai nt a b o ut dr u g d e ali n g fr o m t his a p art m e nt. T h e a p art m e nt w as l e as e d t o a
“J o h n M ur p h y, ” b ut M ur p h y h a d ill e g all y s u bl e as e d t h e a p art m e nt t o t w o m e n ni c k n a m e d “ D ”
a n d “ B o y ” f or t h eir dr u g d e al i n g.

A m ai nt e n a n c e p ers o n h a d als o s m ell e d m arij u a n a i n t h e

a p art m e nt, a n d a n offi c er s m ell e d m arij u a n a as h e w al k e d b y it. T h e offi c er k n e w t h at S h e c kl es
w as at t h e a p art m e nt at t his ti m e b ut t h at his pi n g e d p h o n e r e m ai n e d at t h e T err a c e Cr e e k
a p art m e nt .
Aft er l e ar ni n g t his i nf or m ati o n, offi c ers s o u g ht s e ar c h w arr a nts f or b ot h a p art m e nts l at e
o n J ul y 1 2.

W hil e o n e offi c er o bt ai n e d t h e w arr a nts, ot h ers o bs er v e d S h e c kl es l e a v e t h e

Cr es c e nt C e ntr e a p art m e nts at a b o ut 1 1: 3 0 p. m.
m arij u a n a.

T h e y st o p p e d his v e hi cl e

T h e offi c ers d et ai n e d S h e c kl es u ntil a dr u g d o g c o ul d arri v e.

a n d s m ell e d

T h e d o g p ositi v el y

al ert e d t o t h e pr es e n c e of c o ntr a b a n d. T h e offi c ers s e ar c h e d t h e v e hi cl e a n d f o u n d a h a n d g u n.
S h e c kl es c o ul d n ot p oss ess fir e ar ms b e c a us e of a pri or f el o n y dr u g c o n vi cti o n, s o t h e offi c ers
arr est e d hi m.

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 4

U nit e d St at es v. S h e c kl es

Pa ge 4

A littl e u n d er a n h o ur aft er t h e offi c ers i niti at e d t his st o p, a st at e j u d g e a p pr o v e d t h e
s e ar c h w arr a nts f or t h e t w o a p art m e nts.
a p art m e nt.

T h e y s ei z e d a b o ut

1. 5

T h e offi c ers first s e ar c h e d t h e Cr es c e nt C e ntr e

kil o gr a ms

of

h er oi n a n d 1 4 4

gr a ms

of cr yst al

m et h a m p h et a mi n e. T h e y als o r e c o v er e d t w o h a n d g u ns a n d a n A R -1 5 rifl e.
W hil e t h e Cr es c e nt C e ntr e s e ar c h pr o gr ess e d, ot h ers e x e c ut e d t h e w arr a nt at t h e T err a c e
Cr e e k a p art m e nt. It w as t h e mi d dl e of t h e ni g ht.

S h e c kl es’s girlfri e n d, Crist al Fl or es, w as

sl e e pi n g i n t h e a p art m e nt wit h h er y o u n g d a u g ht er. A b o ut ni n e t o t e n offi c ers e nt er e d wit h g u ns
dr a w n. T h e y or d er e d Fl or es t o t h e gr o u n d.

W h e n s h e e x pl ai n e d t h at s h e w as pr e g n a nt, t h e y t ol d

h er t o g et u p, h olst er e d t h eir w e a p o ns, a n d t ur n e d t h e li g hts o n.
s e ar c h.

Offi c ers pr o c e e d e d wit h t h e

T h e y f o u n d t h e pi n g e d p h o n e, a fir e ar m m a g a zi n e, d o c u m e nts c o nt ai ni n g t h e n a m e

“J o h n M ur p h y ” as t h e l ess e e of t h e Cr es c e nt C e ntr e a p art m e nt, a n d p a p er w or k f o r a st or a g e u nit
at a s elf -st or a g e f a cilit y.
T h e offi c ers as k e d Fl or es a b o ut t h e st or a g e u nit.

T h e p arti es dis p ut e w h at w as s ai d.

A c c or di n g t o t h e offi c ers, Fl or es c al ml y a c k n o wl e d g e d t h at s h e h a d b e e n t o t h e st or a g e u nit a n d
k e pt cl ot h es a n d m a n y o n e -d oll ar bills f or h er d a u g ht er t h er e. S h e als o all e g e dl y st at e d h er b eli ef
t h at S h e c kl es h a d r etri e v e d ar o u n d $ 4 0, 0 0 0 fr o m t h e u nit a s h ort ti m e a g o t o b u y t h e h er oi n
f o u n d at t h e ot h er a p art m e nt.
st at e m e nts.

D uri n g a s u p pr essi o n h e ari n g, Fl or es di d n ot r e c all t h es e

S h e t estifi e d t h at s h e h a d n o a ut h orit y o v er t h e st or a g e u nit, w as s c ar e d, a n d j ust

w a nt e d t h e offi c ers t o l e a v e.

At 3: 2 0 a. m., r o u g hl y t w o h o urs aft er t h e offi c ers’ e ntr y, Fl or es

si g n e d a f or m c o ns e nti n g t o a s e ar c h of t h e st or a g e u nit.

T h e s e ar c h r e v e al e d a s u bst a nti al

a m o u nt of m o n e y, al o n g wit h s e p ar at e b a gs of cl ot h es a n d o n e -d oll ar bills.
S h e c kl es w as i n di ct e d o n s e v er al c o u nts.

H e m o v e d t o s u p pr ess t h e e vi d e n c e a g ai nst

hi m, ar g ui n g t h at t h e g o v er n m e nt vi ol at e d t h e F o urt h A m e n d m e nt w h e n it tr a c k e d his p h o n e,
st o p p e d his c ar, a n d s e ar c h e d his a p art m e nts a n d st or a g e u nit.

Aft er a n e vi d e nti ar y h e ari n g, a

m a gistr at e j u d g e r e c o m m e n d e d t h at t h e distri ct c o urt r ej e ct t h es e ar g u m e nts.
S h e c kl es , 2 0 1 8

W L 7 2 9 7 8 6 7, at * 1– 8 ( W. D . K y. N o v. 2 0, 2 0 1 8).

U nit e d St at es v.

T h e distri ct c o urt a gr e e d.

U nit e d St at es v. S h e c kl es , 2 0 1 9 W L 3 2 5 6 3 7, at * 1– 6 ( W. D. K y. J a n. 2 5, 2 0 1 9).

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 5

U nit e d St at es v. S h e c kl es

S h e c kl es e nt er e d i nt o a c o n diti o n al pl e a a gr e e m e nt.
i n v ol vi n g dr u g or fir e ar m off e ns es.

Pa ge 5
H e pl e a d e d g uilt y t o fi v e c o u nts

2 1 U. S. C. § § 8 4 1( a)( 1), 8 4 6, 8 5 6( a)( 1); 1 8

U. S. C.

§ 9 2 2( g)( 1). T h e distri ct c o urt s e nt e n c e d hi m t o 1 0 8 m o nt hs’ i m pris o n m e nt.
S h e c kl es r es er v e d t h e ri g ht t o a p p e al t h e distri ct c o urt’s d e ni al of his m oti o n t o s u p pr ess.
H e n o w i n v o k es t his ri g ht.

W h e n c o nsi d eri n g a d e ni al of a m oti o n t o s u p pr ess, w e r e vi e w t h e

distri ct c o urt’s f a ct u al fi n di n gs f or cl e ar err or a n d its l e g al c o n cl usi o ns d e n o v o. U nit e d St at es v.
Hi n es , 8 8 5 F. 3 d 9 1 9, 9 2 4 ( 6t h Cir. 2 0 1 8).
II
T h e F o urt h A m e n d m e nt pr o vi d es: “ T h e ri g ht of t h e p e o pl e t o b e s e c ur e i n t h eir p ers o ns,
h o us es, p a p ers, a n d eff e cts, a g ai nst u nr e as o n a bl e s e ar c h es a n d s ei z ur es, s h all n ot b e vi ol at e d, a n d
no

W arr a nts s h all iss u e, b ut u p o n pr o b a bl e c a us e, s u p p ort e d b y O at h or affir m ati o n, a n d

p arti c ul arl y d es cri bi n g t h e pl a c e t o b e s e ar c h e d, a n d t h e p ers o ns or t hi n gs t o b e s ei z e d. ”

U. S.

C o nst. a m e n d. I V. S h e c kl es all e g es t hr e e vi ol ati o ns of t hi s t e xt. H e ar g u es t h at: ( 1) t h e offi c ers
di d n ot h a v e “ pr o b a bl e c a us e ” f or t h e w arr a nts t o tr a c k his p h o n e a n d s e ar c h his a p art m e nts;
( 2) t h e y e n g a g e d i n a n “ u nr e as o n a bl e ” “s ei z ur e ” w h e n t h e y st o p p e d his c ar a n d d et ai n e d hi m;
a n d ( 3) t h e y e n g a g e d i n a n “ unr e as o n a bl e ” “s e ar c h ” w h e n t h e y l o o k e d t hr o u g h his st or a g e u nit.
A. Pr o b a bl e C a us e f or t h e W arr a nts
S h e c kl es cl ai ms t h at all t hr e e s e ar c h w arr a nts i n t his c as e l a c k e d pr o b a bl e c a us e.
cl ai m tri g g ers w ell -est a blis h e d s u bst a nti v e a n d pr o c e d ur al gr o u n d r ul es.

T his

First t h e s u bst a n c e:

Pr o b a bl e c a us e “is n ot a hi g h b ar. ” Distri ct of C ol u m bi a v. W es b y , 1 3 8 S. Ct. 5 7 7, 5 8 6 ( 2 0 1 8)
( cit ati o n o mitt e d). It d e m a n ds o nl y a “f air pr o b a bilit y ” of cri mi n al a cti vit y. U nit e d St at es v.
C ar p e nt er , 3 6 0 F. 3 d 5 9 1, 5 9 4 ( 6t h Cir. 2 0 0 4) ( e n b a n c) ( q u oti n g Illi n ois v. G at es, 4 6 2 U. S. 2 1 3,
2 3 8 ( 1 9 8 3)).

W h e n d e ci di n g w h et h er t his f air pr o b a bilit y e xists, c o urts m ust vi e w t h e t ot alit y of

t h e cir c u mst a n c es t hr o u g h t h e c o m m o n-s e ns e l e ns of or di n ar y p e o pl e, n ot t h e t e c h ni c al l e ns of
tr ai n e d l a w y ers.
( e n b a n c).

S e e U nit e d St at es v. C hristi a n , 9 2 5 F. 3 d 3 0 5, 3 0 9– 3 1 1 ( 6t h Cir. 2 0 1 9)

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 6

U nit e d St at es v. S h e c kl es

Pa ge 6

N e xt t h e pr o c e d ur e: W e r e vi e w d e n o v o t h e distri ct c o urt’s aft er -t h e-f a ct c o n cl usi o n t h at
pr o b a bl e c a us e e xist e d. S e e Hi n es , 8 8 5 F. 3 d at 9 2 4. B ut w e gi v e “ gr e at d ef er e n c e ” t o t h e st at e
j u d g e’s i niti al pr o b a bl e-c a us e c o n cl usi o n w h e n iss ui n g t h e w arr a nt, id. ( cit ati o n o mitt e d), as ki n g
m er el y w h et h er t h e j u d g e h a d a “s u bst a nti al b asis ” f or t h at c o n cl usi o n, U nit e d St at es v. All e n ,
2 1 1 F. 3 d 9 7 0, 9 7 3 ( 6t h Cir. 2 0 0 0) ( e n b a n c) ( cit ati o n o mitt e d).

W h e n a ns w eri n g t his q u esti o n,

h o w e v er, w e m a y c o nsi d er o nl y t h e s w or n i nf or m ati o n pr o vi d e d t o t h e st at e j u d g e.

S e e U nit e d

St at es v. D a vis , 9 7 0 F. 3 d 6 5 0, 6 6 6 ( 6t h Cir. 2 0 2 0). I n t his c as e, t h at m e a ns w e m a y c o nsi d er
o nl y t h e affi d a vits t h at t h e offi c ers s u b mitt e d t o o bt ai n t h e w arr a nts.
1. P h o n e -Tr a c ki n g W arr a nt
S h e c k l es first c h all e n g es t h e w arr a nt t o o bt ai n his p h o n e’s l o c ati o n d at a.

T his tr a c ki n g

w arr a nt r e q uir es t w o dis cl ai m ers a b o ut w h at w e n e e d n ot d e ci d e. Dis cl ai m er O n e: I n C ar p e nt er
v. U nit e d St at es , 1 3 8 S. Ct. 2 2 0 6 ( 2 0 1 8), t h e S u pr e m e C o urt r es er v e d w h et h er t h e a c q uisiti o n of
a p h o n e’s “r e al -ti m e ” l o c ati o n d at a ( as c o m p ar e d t o its hist ori c al l o c ati o n d at a) is a F o urt h
A m e n d m e nt “s e ar c h ” n e c essit ati n g a w arr a nt.

I d. at 2 2 2 0.

T h e r e c or d h er e l e a v es u n cl e ar

w h et h er A T & T pr o d u c e d m or e t h a n r e al -ti m e d at a fr o m Sh e c kl es’s p h o n e. Y et w e c a n l e a v e t his
“s e ar c h ” q u esti o n f or a n ot h er d a y b e c a us e t h e g o v er n m e nt c o n c e d e d t h at t h e p h o n e pi n gi n g
r e q uir e d a w arr a nt b a c k e d b y pr o b a bl e c a us e. C o m p ar e St at e v. Br o w n , 2 0 2 A. 3 d 1 0 0 3, 1 0 1 8
( C o n n. 2 0 1 9), wit h U nit e d St at es v. H a m m o n d , _ _ F. 3 d _ _, 2 0 2 1 W L 1 6 0 8 7 8 9, at * 7– 1 3 ( 7t h Cir.
A pr. 2 6, 2 0 2 1).
Dis cl ai m er T w o: T h e F o urt h A m e n d m e nt s a ys t h at “ n o

W arr a nts s h all iss u e, b ut u p o n

pr o b a bl e c a us e[.] ” U. S. C o nst. a m e n d I V. Y et pr o b a bl e c a us e of w h at ?

W h e n t h e p oli c e s e e k a

w arr a nt t o s e ar c h a h o m e f or p h ysi c al it e ms, t h e c as el a w h as l o n g a ns w er e d t his q u esti o n: T h e
p oli c e n e e d a pr o b a bl e -c a us e “ n e x us ” s h o wi n g a f air pr o b a bilit y t h at t h e h o m e t o b e s e ar c h e d
will c o nt ai n t h e t hi n gs t o b e s ei z e d. S e e U nit e d St at es v. R e e d , _ _ F. 3 d _ _, 2 0 2 1 W L 1 2 1 7 8 7 1, at
* 3 ( 6t h Cir. A pr. 1, 2 0 2 1) ( cit ati o n o mitt e d); s e e als o Z ur c h er v. St a nf or d D ail y , 4 3 6 U. S. 5 4 7,
5 5 6 ( 1 9 7 8).

H er e, h o w e v er, t h e offi c ers s o u g ht t o l o c at e a p h o n e t o i d e ntif y t h e p ers o n usi n g it

a n d i n v esti g at e t h e p ers o n’s cri m es, n ot t o s ei z e a n yt hi n g.

W h at t y p e of “ n e x us

b et w e e n . . . c ell p h o n e l o c ati o n d at a a n d dr u g tr affi c ki n g ” j ustifi es t his diff er e nt ki n d of w arr a nt ?
U nit e d St at es v. T h or nt o n , 8 2 2 F. A p p’ x 3 9 7, 4 0 2 ( 6t h Cir. 2 0 2 0).

M ust t h e affi d a vit s h o w o nl y

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

U nit e d St at es v. S h e c kl es

P a g e: 7
Pa ge 7

a f air pr o b a b ilit y t h at t h e p h o n e’s d at a “ will ai d i n a p arti c ul ar ” i n v esti g ati o n a n d dis cl os e
e vi d e n c e of cri mi n al a cti vit y ? U nit e d St at es v. C hristi a n , 2 0 1 7
M a y 2 4, 2 0 1 7) ( q u oti n g

A n dr es e n v.

H a y d e n , 3 8 7 U. S. 2 9 4, 3 0 7 ( 1 9 6 7).

W L 2 2 7 4 3 2 8, at * 9 ( E. D. V a.

M ar yl a n d , 4 2 7 U. S. 4 6 3, 4 8 3 ( 1 9 7 6)); s e e W ar d e n v.
Or m ust it s h o w, s a y, a f air pr o b a bilit y t h at t h e p h o n e its elf

is b ei n g us e d “i n c o n n e cti o n wit h cri mi n al a cti vit y ” ?

S e e U nit e d St at es v. P o w ell , 9 4 3

F. S u p p. 2 d 7 5 9, 7 7 9 ( E. D. Mi c h. 2 0 1 3), aff’ d o n ot h er gr o u n ds 8 4 7 F. 3 d 7 6 0 ( 6t h Cir. 2 0 1 7).
T his n e x us iss u e h as a d d e d i m p ort a n c e aft er C ar p e nt er .
W e n e e d n ot r es ol v e t h e iss u e h er e. T his c as e’s affi d a vit w o ul d p ass m ust er u n d er a n y
t est.

T h e affi d a vit s u m m ari z e d t h e 2 0 0 7 i n v esti g ati o n of t h e Ri v as-L o p e z br ot h ers, t h eir

distri b uti o n t o B yr o n M a y es, a n d t h e D E A’s l ar g e s ei z ur e of dr u gs a n d m o n e y at t h at ti m e. T h e
affi d a vit n e xt s u m m ari z e d t h e Ri v as -L o p e z br ot h ers’ p ost -pris o n dr u g tr affi c ki n g i n 2 0 1 6 a n d t h e
s ei z ur e of a l ar g e a m o u nt of dr u gs a n d m o n e y fr o m t h e L o uis vill e st as h h o us e. It als o n ot e d t h at
Fr e d d y t ol d a n u n d er c o v er D E A a g e nt o n J u n e 1 4, 2 0 1 7, t h at h e h a d j ust s p o k e n wit h “ his
L o uis vill e distri b ut or ” a n d t h at h e w a nt e d t h e a g e nt t o d eli v er t e n kil o gr a ms of c o c ai n e t o t h e
distri b ut or. Fr e d d y l at er t ol d t h e a g e nt t h at t h e L o uis vill e distri b ut or w o ul d p a y i n c as h at a pri c e
of $ 2 7, 0 0 0 p er kil o gr a m.

Usi n g “t oll a n al ysis ” of Fr e d d y’s p h o n e fr o m J u n e 1 4, t h e D E A

i d e ntifi e d t h e p h o n e n u m b er a n d p h o n e t h at t his L o uis vill e distri b ut or li k el y us e d t o s p e a k wit h
F r e d d y.

T h e pr e p ai d p h o n e h a d n o i d e ntifi a bl e c ust o m er.

T h e affi d a vit e x pl ai n e d t h at, i n t h e

offi c er’s e x p eri e n c e, dr u g d e al ers c o m m o nl y us e t h at t y p e of p h o n e t o r e m ai n a n o n y m o us.
C o nsi d er e d c oll e cti v el y, t his i nf or m ati o n pr o vi d e d a “s u bst a nti al b asis ” f or t h e st at e
j u d g e’s fi n di n g t h at pr o b a bl e c a us e e xist e d t o o bt ai n t h e p h o n e’s l o c ati o n d at a. G at es , 4 6 2 U. S.
at 2 3 8 ( cit ati o n o mitt e d). A n u n d er c o v er a g e nt h a d l e ar n e d fr o m Fr e d d y Ri v as -L o p e z — a k n o w n
dr u g tr affi c k er — t h at Fr e d d y pl a n n e d t o u n d ert a k e a l ar g e d e al wit h “ his L o uis vill e distri b ut or. ”
U nli k e wit h i nf or m ati o n fr o m a c o nfi d e nti al i nf or m a nt, w e pr es u m e t h e r eli a bilit y of i nf or m ati o n
fr o m t his g o v er n m e nt a g e nt. S e e U nit e d St at es v. V e ntr es c a , 3 8 0 U. S. 1 0 2, 1 1 1 ( 1 9 6 5); U nit e d
St at es v. L a psi ns , 5 7 0 F. 3 d 7 5 8, 7 6 4 ( 6t h Cir. 2 0 0 9); 2 W a y n e R. L a F a v e, S e ar c h a n d S eiz ur e:
A Tr e atis e o n t h e F o urt h A m e n d m e nt § 3. 5( a) ( 6t h e d), W estl a w ( d at a b as e u p d at e d S e pt. 2 0 2 0).
T h e affi d a vit als o e x pl ai n e d w h y t h e p h o n e li k el y w as us e d b y t h e L o uis vill e distri b ut o r “i n
c o n n e cti o n wit h ” t his p e n di n g d e al: It w as t h e n u m b er us e d w h e n Ri v as -L o p e z t ol d t h e

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 8

U nit e d St at es v. S h e c kl es

Pa ge 8

u n d er c o v er a g e nt t h at h e h a d s p o k e n t o his distri b ut or. P o w ell , 9 4 3 F. S u p p. 2 d at 7 7 9. A n d t h e
p h o n e’s l o c ati o n

w o ul d li k el y yi el d us ef ul e vi d e n c e of cri mi n al a ct i vit y, i n cl u di n g t h e

distri b ut or’s i d e ntit y. S e e H a y d e n , 3 8 7 U. S. at 3 0 7. T h us, n o m att er t h e n at ur e of t h e r e q uir e d
“ n e x us ” b et w e e n t h e p h o n e’s l o c ati o n d at a a n d cri mi n al a cti vit y, a s uffi ci e nt n e x us e xist e d h er e.
T h or nt o n , 8 2 2 F. A p p’ x at 4 0 2; s e e U nit e d St at es v. Gi b bs, 5 4 7 F. A p p’ x 1 7 4, 1 7 9 ( 4t h Cir.
2 0 1 3).
S h e c kl es’s r es p o ns es f all s h ort.

H e first ass erts t h at t h e affi d a vit off er e d n o m or e f a cts

t h a n t h at “ a k n o w n dr u g d e al er ” ( Fr e d d y Ri v as-L o p e z) “ c all[ e d] a n ot h er p h o n e. ” A p p ell a nt’s Br.
3 3. T h e affi d a vit pr o vi d e d m u c h m or e t h a n t h at: A n u n d er c o v er a g e nt s u m m ari z e d h o w Fr e d d y
w as pl a n ni n g a l ar g e dr u g d e al wit h his L o uis vill e distri b ut or, a n d Fr e d d y’s p h o n e r e c or ds
s h o w e d t h at t h e distri b ut or w as usi n g t his ot h er p h o n e t o arr a n g e t h at cri m e.
S h e c kl es n e xt c o nt e n ds t h at e v e n if pr o b a bl e c a us e e xist e d w h e n t h e j u d g e iss u e d t h e
w arr a nt, it “ dissi p at e d ” d a ys l at er w h e n offi c ers l e ar n e d fr o m t h e u n d er c o v er a g e nt t h at t h e
distri b ut or’s c o c ai n e d e al wit h Ri v as -L o p e z h a d f all e n t hr o u g h. S h e c kl es c orr e ctl y n ot es t h at, at
l e ast f or a tr a diti o n al s e ar c h w arr a nt of a h o m e, “t h er e m ust b e pr o b a bl e c a us e at t h e ti m e t h e
j u d g e iss u es t h e w arr a nt a n d at t h e ti m e offi c ers e x e c ut e it[.] ” U nit e d St at es v. Ar c hi b al d ,
6 8 5 F. 3 d 5 5 3, 5 6 0 ( 6t h Cir. 2 0 1 2). If n e w i nf or m ati o n c o m es t o li g ht i n t h e i nt eri m (s a y, t h e
p oli c e l e ar n t h at t h e h o m e h as j ust b e e n s u bj e ct t o a c o ns e nt s e ar c h t h at u n c o v er e d n o e vi d e n c e),
t his n e w i nf or m ati o n c o ul d eli mi n at e t h e pr o b a bl e c a us e t h at e xist e d w h e n t h e j u d g e iss u e d t h e
w arr a nt. S e e U nit e d St at es v. B o wli n g , 9 0 0 F. 2 d 9 2 6, 9 3 2 ( 6t h Cir. 1 9 9 0).
T h e c as el a w h as n ot a d dr ess e d h o w t his r ul e s h o ul d a p pl y t o t e c h n ol o gi c all y a d v a n c e d
( a n d o n g oi n g) s e ar c h es li k e t h e ki n d at iss u e

wit h t h e tr a c ki n g

w arr a nt.

S e e L a F a v e,

s u pr a, § 4. 7( a); cf. O ri n S. K err, S e ar c h W arr a nts i n a n Er a of Di git al E vi d e n c e , 7 5 Miss. L.J.
8 5, 1 0 2 – 0 4, 1 1 5 – 2 4 ( 2 0 0 5) ( c o m p ut er s e ar c h); U nit e d St at es v. N y a h , 9 2 8 F. 3 d 6 9 4, 6 9 9– 7 0 1
( 8t h Cir. 2 0 1 9) ( el e ctr o ni c-s er vi c e-pr o vi d er d at a).

B ut t h e r ul e w o ul d n ot aff e ct t h e o ut c o m e

a n y w a y. E vi d e n c e s h o ul d n ot b e s u p pr ess e d if pr o b a bl e c a us e c o nti n u e d t o e xist d es pit e t h e n e w
f a cts. S e e B o wli n g , 9 0 0 F. 2 d at 9 3 4. E v e n if t h e offi c ers n e e d e d pr o b a bl e c a us e f or e v er y “ pi n g ”
of t h e p h o n e, t h e n e w f a ct (t h at t h e d e al wit h Ri v as -L o p e z h a d f all e n t hr o u g h) di d n ot n e g at e
pr o b a bl e c a us e. T h e u n d er c o v er a g e nt n ot e d t h at t his d e al w o ul d n ot pr o c e e d pr e cis el y b e c a us e

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 9

U nit e d St at es v. S h e c kl es

t h e distri b ut or h a d b o u g ht ot h er dr u gs.

Pa ge 9

S o a f air pr o b a bilit y r e m ai n e d t h at t h e p h o n e pi n gi n g

w o ul d r e v e al e vi d e n c e of a cri m e e v e n aft er t h e w arr a nt’s iss u a n c e.

S e e U nit e d St at es v. Gr e e n ,

5 5 4 F. A p p’ x 4 9 1, 4 9 5 – 9 6 ( 6t h Cir. 2 0 1 4); s e e als o U nit e d St at es v. P ort er , 7 7 4 F. A p p’ x 9 7 8,
9 7 9 ( 6t h Cir. 2 0 1 9).
2. W arr a nts f or S h e c kl es’s T w o A p art m e nts
S h e c kl es n e xt c h all e n g es t h e s e ar c h w arr a nts f or t h e Cr es c e nt C e ntr e a n d T err a c e Cr e e k
a p art m e nts. Pr o b a bl e c a us e f or t h es e t w o w arr a nts r e q uir e d a f air pr o b a bilit y t h at t h e s p e cifi c
pl a c e t o b e s e ar c h e d c o nt ai n e d t h e s p e cifi c t hi n gs t o b e s ei z e d. S e e Z ur c h er , 4 3 6 U. S. at 5 5 6.
Or, as o ur c as es p ut it, t h er e m ust b e a “ n e x us ” b et w e e n t h e pl a c e t o b e s e ar c h e d a n d t h e
e vi d e n c e s o u g ht. C ar p e nt er , 3 6 0 F. 3 d at 5 9 4.
A virt u all y i d e nti c al affi d a vit w as us e d f or b ot h w arr a nts i n t his c as e.

T h e affi d a vit

pr o vi d e d f a cts s u p p orti n g t hr e e pr o p os iti o ns: t h at S h e c kl es w as a dr u g d e al er, t h at h e li v e d at t h e
T err a c e Cr e e k a p art m e nt, a n d t h at h e s ol d dr u gs fr o m t h e Cr es c e nt C e ntr e a p art m e nt. St art wit h
S h e c kl es’s dr u g -d e al er st at us. T h e affi d a vit i n cl u d e d t h e i nf or m ati o n fr o m t h e tr a c ki n g w arr a nt,
d es cri bi n g t h e 2 0 0 7 i n v esti g ati o n of t h e Ri v as -L o p e z br ot h ers a n d t h e 2 0 1 6 i n v esti g ati o n of t h e
st as h h o us e affili at e d wit h J uli o. It a d d e d t h at offi c ers h a d w at c h e d S h e c kl es visit t his h o us e
aft er t h e y l e ar n e d t h at J uli o h a d s hi p p e d dr u gs t h er e.

T h e aff i d a vit als o s u m m ari z e d t h e

u n d er c o v er a g e nt’s dis c ussi o n wit h Fr e d d y a b o ut t h e d eli v er y of t e n kil o gr a ms of c o c ai n e t o “ his
L o uis vill e distri b ut or ” w h o us e d a s p e cifi c p h o n e. It e x pl ai n e d t h at S h e c kl es li k el y w as t his
distri b ut or b e c a us e t h e p h o n e h a d pi n g e d at a p art m e nts c o n n e ct e d t o hi m. It als o n ot e d t h at
Fr e d d y l at er t ol d t h e u n d er c o v er a g e nt t h at t his d e al w o ul d n ot pr o c e e d b e c a us e t h e distri b ut or
( S h e c kl es) h a d “i n v est e d ” “i n ot h er dr u gs. ”
T h e affi d a vit als o i n cl u d e d f a cts i n di c ati n g t h at S h e c kl es li v e d at t h e T err a c e Cr e e k
a p art m e nt c o m pl e x.

T h e p h o n e of Fr e d d y’s L o uis vill e distri b ut or pi n g e d at t his l o c ati o n.

Offi c ers t h e n o bs er v e d a F or d E x p e diti o n r e nt e d b y S h e c kl es t h er e.

A n d i nt er n et s e ar c h es

s h o w e d t h at S h e c kl es l e as e d a s p e cifi c a p art m e n t at t h e c o m pl e x.
T h e affi d a vit l astl y i n cl u d e d f a cts i n di c ati n g t h at S h e c kl es w as s elli n g dr u gs at t h e
Cr es c e nt C e ntr e a p art m e nt. T h e p h o n e pi n g e d at t his a p art m e nt b uil di n g aft er t h e pi n g at T err a c e

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6
Cr e e k.

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 0

U nit e d St at es v. S h e c kl es

Pa ge 1 0

A n offi c er o bs er v e d S h e c kl es’s E x p e diti o n p a r k e d i n t h e s p ot f or a s p e cifi c a p art m e nt.

T h e n e xt d a y, a n e m pl o y e e at t h e b uil di n g r el a y e d t h e a n o n y m o us dr u g -d e ali n g c o m pl ai nt a b o ut
t h at a p art m e nt. T h e ti pst er n ot e d t h at t h e a p art m e nt w as l e as e d t o J o h n M ur p h y, w h o h a d s u bl et
it t o “ D ” a n d “ B o y ” t o s ell dr u gs. A n e m pl o y e e h a d s m ell e d m arij u a n a i n t h e a p art m e nt w h e n
r e pl a ci n g a filt er. T h e offi c er als o s m ell e d m arij u a n a fr o m t h e a p art m e nt w h e n w al ki n g p ast it.
T h e affi d a vit s o u g ht s e ar c h w arr a nts t o s ei z e dr u gs; dr u g p ar a p h er n ali a; dr u g pr o c e e ds;
a n d dr u g r e c or ds, i n cl u di n g “ c ell ul ar p h o n es(s) . . . w hi c h m a y c o nt ai n t h e i d e ntiti es of s u p pli ers
or b u y ers. ”

D o es t h e affi d a vit’s i nf or m ati o n pr o vi d e a s uffi ci e nt “ n e x us ” b et w e e n t h es e it e ms

a n d t h e a p art m e nts ?

W e will a d dr ess e a c h a p art m e nt i n t ur n.

a. Cr es c e nt C e ntr e A p art m e nt . T h e n e x us is o b vi o us f or t h e Cr es c e nt C e ntr e a p art m e nt.
Pr o b a bl e c a us e e xists t o s e ar c h a r esi d e n c e if a n affi d a vit “ dir e ctl y c o n n e ct[s] t h e r esi d e n c e wit h
t h e s us p e ct e d dr u g d e ali n g a cti vit y[.] ” U nit e d St at es v.

Mill er , _ _ F. A p p’ x _ _, 2 0 2 1

WL

1 1 0 2 3 0 2, at * 2 ( 6t h Cir. M ar. 2 3, 2 0 2 1) ( q u oti n g U nit e d St at es v. Br o w n , 8 2 8 F. 3 d 3 7 5, 3 8 4 ( 6t h
Cir. 2 0 1 6)).

W e h a v e f o u n d s u c h a c o n n e cti o n w h e n a n a n o n y m o us ti pst er c o m pl ai n e d a b o ut

dr u g s al es at a h o m e a n d offi c ers l at er s m ell e d dr u gs t h er e. S e e U nit e d St at es v. Y ar br o u g h ,
2 7 2 F. A p p’ x 4 3 8, 4 4 2 – 4 3 ( 6t h Cir. 2 0 0 7) ( p er c uri a m); U nit e d St at es v. El ki ns , 3 0 0 F. 3 d 6 3 8,
6 5 9 – 6 0 ( 6t h Cir. 2 0 0 2); s e e als o J o h ns o n v. U nit e d St at es , 3 3 3 U. S. 1 0, 1 3 ( 1 9 4 8); U nit e d St at es
v. T all e y , 6 9 2 F. A p p’ x 2 1 9, 2 2 2 ( 6t h Cir. 2 0 1 7).
T h e Cr es c e nt C e ntr e a p art m e nt h as t h e s a m e c o n n e cti o n t o dr u g d e ali n g.
s m ell e d m arij u a n a at t h e a p art m e nt t h e d a y h e s o u g ht t h e w arr a nt.

A n offi c er

T h e offi c er’s s e ns es w er e

c orr o b or at e d b y a n a p art m e nt -b uil di n g e m pl o y e e w h o h a d s m ell e d m arij u a n a at t h e a p art m e nt.
T h e y w er e f urt h er c orr o b or at e d b y a n a n o n y m o us c o m pl ai n a nt’s ti p t h at i n di vi d u als w er e s elli n g
dr u gs t h er e.

T his a p art m e nt -s p e cifi c e vi d e n c e al o n e li k el y cr e at e d pr o b a bl e c a us e.

Y ar br o u g h , 2 7 2 F. A p p’ x at 4 4 2 – 4 3.

Y et it s at at o p g e n er al e vi d e n c e t h at S h e c kl es w as a

distri b ut or f or a l ar g e -s c al e dr u g tr affi c k er.
G at es , 4 6 2 U. S. at 2 3 8 ( cit ati o n o mitt e d).

See

S o a “s u bst a nti al b asis ” e xist e d f or t h e w arr a nt.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 1

U nit e d St at es v. S h e c kl es

Pa ge 1 1

I n r es p o ns e, S h e c kl es c h all e n g es t w o pi e c es of e vi d e n c e us e d t o est a blis h pr o b a bl e c a us e.
H e first criti ci z es t h e a n o n y m o us ti p. Tr u e, a n a n o n y m o us ti p b y its elf mi g ht f all s h ort of
pr o b a bl e c a us e.

S e e All e n , 2 1 1 F. 3 d at 9 7 6.

B ut “ a n a n o n y m o us ti p t h at is c orr o b or at e d b y

i n d e p e n d e nt p oli c e w or k m a y” w ell s uffi c e. Y ar br o u g h , 2 7 2 F. A p p’ x at 4 4 2.

A n d t his ti p w as

c orr o b or at e d b y cr oss -b or d er p oli c e w or k.
S h e c kl es n e xt c h all e n g es t h e v al u e of t h e offi c er’s d et e cti o n of a m arij u a n a o d or, n oti n g
t h at it c o ul d h a v e c o m e fr o m a n ot h er a p art m e nt a n d t h at th e o c c u p a nts c o ul d h a v e b e e n
m arij u a n a us ers, n ot s ell ers. B ut a n y a m o u nt of ill e g al c o ntr a b a n d c a n j ustif y a w arr a nt t o s ei z e
it ( m arij u a n a r e m ai ns ill e g al i n K e nt u c k y). S e e U nit e d St at es v. C h ur c h , 8 2 3 F. 3 d 3 5 1, 3 5 5 ( 6t h
Cir. 2 0 1 6). A n d t h e s m ell of m arij u a n a m ust b e vi e w e d wit h all t h e ot h er e vi d e n c e, w hi c h m a d e
it q uit e u nli k el y t h at t h e offi c er h a d t h e wr o n g a p art m e nt. S e e C hristi a n , 9 2 5 F. 3 d at 3 1 1.
b. T err a c e Cr e e k A p art m e nt . T h e T err a c e Cr e e k a p art m e nt pr es e nts a m u c h cl os er c all.
T h e affi d a vit s h o ws t h at S h e c kl es w as a dr u g d e al er w h o li v e d t h er e. Is t h at e n o u g h t o cr e at e a
“ n e x us ” t o s e ar c h t h e a p art m e nt ? O ur c as es p oi nt i n b ot h dir e cti o ns o n t his q u esti o n. S e e R e e d ,
2 0 2 1 W L 1 2 1 7 8 7 1, at * 4. F or his p art, S h e c kl es r eli es o n st at e m e nts i n o ur c as es dis missi n g t h e
n oti o n t h at a “ d ef e n d a nt’s st at us as a dr u g d e al er, st a n di n g al o n e, gi v es ris e t o a f air pr o b a bilit y
t h at dr u gs will b e f o u n d i n his h o m e. ” U nit e d St at es v. Fr azi er , 4 2 3 F. 3 d 5 2 6, 5 3 3 ( 6t h Cir.
2 0 0 5). Y et m a n y ot h er c as es c all i t “ w ell est a blis h e d t h at if t h er e is pr o b a bl e c a us e t o s us p e ct a n
i n di vi d u al of b ei n g a n o n g oi n g dr u g tr affi c k er, t h er e is a s uffi ci e nt n e x us b et w e e n t h e e vi d e n c e
s o u g ht a n d t h at i n di vi d u al’s h o m e. ” U nit e d St at es v. F e a g a n , 4 7 2 F. A p p’ x 3 8 2, 3 9 2 ( 6t h Cir.
2 0 1 2). T h es e c as es h a v e r e p e at e dl y n ot e d t h at “[i] n t h e c as e of dr u g d e al ers, e vi d e n c e is li k el y t o
b e f o u n d w h er e t h e d e al ers li v e. ” U nit e d St at es v. S u mli n , 9 5 6 F. 3 d 8 7 9, 8 8 6 ( 6t h Cir. 2 0 2 0)
( cit ati o n o mitt e d).
C o nfli ct ?
1 2 1 7 8 7 1, at * 4 – 5.

N o, w e h a v e r e c o n cil e d o ur c as es i n f a ct -s p e cifi c w a ys. S e e R e e d , 2 0 2 1 W L
W h e n w e h a v e us e d a dr u g d e al er’s dr u g a cti viti es al o n e t o fi n d pr o b a bl e

c a us e t o s e ar c h t h e d e al er’s h o m e, t h e d e al er w as e n g a g e d i n “ c o nti n u al a n d o n g oi n g o p er ati o ns ”
t y pi c all y i n v ol vi n g l ar g e a m o u nts of dr u gs. U nit e d St at es v. M c C o y , 9 0 5 F. 3 d 4 0 9, 4 1 8 ( 6t h Cir.
2 0 1 8); s e e R e e d , 2 0 2 1

W L 1 2 1 7 8 7 1, at * 9 ( citi n g c as es). I n o n e c as e, f or e x a m pl e, offi c ers

st o p p e d a “l ar g e s c al e [ h] er oi n d e al er ” i n a c ar fill e d wit h s o m e 1 1 kil o gr a ms of c o c ai n e.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 2

U nit e d St at es v. S h e c kl es

Pa ge 1 2

U nit e d St at es v. D a vis , 7 5 1 F. A p p’ x 8 8 9, 8 9 1 ( 6t h Cir. 2 0 1 8). I n a n ot h er, offi c ers l e ar n e d,
a m o n g ot h er t hi n gs, t h at a dr u g d e al er h a d pi c k e d u p a p a c k a g e c o nt ai ni n g a kil o gr a m of c o c ai n e.
U nit e d St at es v. Mi g gi ns , 3 0 2 F. 3 d 3 8 4, 3 9 3– 9 4 ( 6t h Cir. 2 0 0 2).

W h e n, b y c o ntr ast, w e h a v e

f o u n d t h at dr u g distri b uti o n al o n e di d n ot s uffi c e, t h e p oli c e h a d e vi d e n c e o nl y of “ a si n gl e
i nst a n c e of dr u g p oss essi o n or distri b uti o n[.] ” M c C o y , 9 0 5 F. 3 d at 4 1 8 n. 5; s e e Br o w n, 8 2 8 F. 3 d
at 3 8 3 – 8 4.

Or t h e y l a c k e d i n d e p e n d e ntl y c orr o b or at e d e vi d e n c e t h at t h e d ef e n d a nt w as e v e n a

dr u g d e al er ( as o p p os e d t o a dr u g us er). S e e U nit e d St at es v. M c P h e ars o n , 4 6 9 F. 3 d 5 1 8, 5 2 4– 2 5
( 6t h Cir. 2 0 0 6).
O ur c as el a w “l e a v es u n cl e ar t h e a m o u nt of dr u g a cti vit y r e q uir e d t o i n v o k e t his n e x us
pri n ci pl e. ” R e e d , 2 0 2 1 W L 1 2 1 7 8 7 1, at * 7. F or t w o r e as o ns, t h o u g h, t h e affi d a vit i n t his c as e
g a v e t h e st at e j u d g e a “s u bst a nti al b asis ” t o r el y o n t h e d e cisi o ns t h at fi n d pr o b a bl e c a us e i n t his
s etti n g.

G at es , 4 6 2 U. S. at 2 3 8 ( cit ati o n o mitt e d).

Most n ot a bl y, t h e affi d a vit d es cri b e d

S h e c kl es’s c o n n e cti o n t o a “l ar g e, o n g oi n g dr u g tr affi c ki n g o p er ati o n ” c e nt er e d i n M e xi c o a n d
l e d b y t h e Ri v as-L o p e z br ot h ers. Br o w n , 8 2 8 F. 3 d at 3 8 3 n. 2. It d es cri b e d, a m o n g ot h er f a cts,
h o w S h e c kl es h a d b e e n n e g oti a ti n g wit h Fr e d d y t o b u y 1 0 kil o gr a ms of c o c ai n e.

Cf. D a vis ,

7 5 1 F. A p p’ x at 8 9 1. A n d it e x pl ai n e d t h at S h e c kl es h a d n ot c o m pl et e d t his d e al b e c a us e h e h a d
i n v est e d i n ot h er dr u gs.

T h e affi d a vit als o d et ail e d t h e e vi d e n c e fr o m t h e Cr es c e nt C e ntr e

a p art m e nt, c orr o b or ati n g t h e o n g oi n g n at ur e of S h e c kl es’s dr u g distri b uti o n.
A p art fr o m S h e c kl es’s w or k wit h a n i nt er n ati o n al dr u g -tr affi c ki n g o p er ati o n, t h e offi c ers
als o i d e ntifi e d a s p e cifi c c o n n e cti o n b et w e e n his r esi d e n c e a n d o n e it e m t h e y s o u g ht t o s ei z e — a
p h o n e.

S h e c kl es h a d us e d a p arti c ul ar c ell p h o n e t o c o or di n at e t h e dr u g d e al wit h Fr e d d y i n

M e xi c o. T his p h o n e h a d “ pi n g e d ” at t h e T err a c e Cr e e k r esi d e n c e d a ys b ef or e t h e s e ar c h. T h e
p h o n e w as t h e t y p e of pr o p ert y t h at, i n t h e w or ds of t h e affi d a vit, m i g ht c o nt ai n i nf or m ati o n
a b o ut S h e c kl es’s “s u p pli ers or b u y ers. ” Cf. S u mli n , 9 5 6 F. 3 d at 8 8 7 & n. 5. A n d t h er e w as a f air
pr o b a bilit y t h at it w as at his r esi d e n c e. T h e t ot alit y of t h e cir c u mst a n c es t h us p er mitt e d t h e st at e
j u d g e t o fi n d pr o b a bl e c a us e t o s e ar c h t his a p art m e nt.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

U nit e d St at es v. S h e c kl es

P a g e: 1 3
Pa ge 1 3

B. T h e V e hi cl e St o p
S h e c kl es n e xt cl ai ms t h at t h e offi c ers c o n d u ct e d a n “ u nr e as o n a bl e ” “s ei z ur e ” u n d er t h e
F o urt h A m e n d m e nt w h e n t h e y st o p p e d hi m as h e dr o v e a w a y fr o m t h e Cr es c e nt C e ntr e
a p art m e nt at ni g ht o n J u n e 1 2. T h e g o v er n m e nt c o n c e d es t w o pr eli mi n ar y p oi nts f or t his cl ai m.
It c o n c e d es t h at t h e offi c ers e n g a g e d i n a “s ei z ur e ” w h e n t h e y st o p p e d S h e c kl es. S e e Br e n dli n v.
C alif or ni a , 5 5 1 U. S. 2 4 9, 2 5 5 ( 2 0 0 7). A n d it c o n c e d es t h at t h e offi c ers s ei z e d S h e c kl es b e c a us e
of his s us p e ct e d dr u g cri m es, n ot b e c a us e of a n y tr affi c off e ns e. S h e c kl es ar g u es t h at t h e s ei z ur e
w as u nr e as o n a bl e b e c a us e t h e offi c ers arr est e d hi m at t h e o uts et of t h e e n c o u nt er a n d l a c k e d t h e
pr o b a bl e c a us e r e q uir e d f or a n arr est. S e e B ail e y v. U nit e d St at es , 5 6 8 U. S. 1 8 6, 1 9 2– 9 3 ( 2 0 1 3) .
B ut w e n e e d n ot d e ci d e w h et h er t h e offi c ers h a d pr o b a bl e c a us e t o arr est S h e c kl es b as e d s ol el y
o n t h e dr u g -d e ali n g e vi d e n c e t h e y us e d t o o bt ai n t h e s e ar c h w arr a nts. Cf. U nit e d St at es v. B a k er ,
9 7 6 F. 3 d 6 3 6, 6 4 5 – 4 6 ( 6t h Ci r. 2 0 2 0). T h e y at l e ast h a d a “r e as o n a bl e s us pi ci o n ” t o i niti at e t h e
st o p, a n d t h e h a n d g u n t h e y l at er dis c o v er e d g a v e t h e m pr o b a bl e c a us e t o arr est S h e c kl es at t h at
p oi nt.
1. I niti al St o p. E v e n w h e n offi c ers l a c k pr o b a bl e c a us e, t h e F o urt h A m e n d m e nt per mits
t h e m t o u n d ert a k e “ bri ef i n v esti g at or y st o ps of p ers o ns or v e hi cl es t h at f all s h ort of tr a diti o n al
arr est. ” U nit e d St at es v. Ar viz u , 5 3 4 U. S. 2 6 6, 2 7 3 ( 2 0 0 2). Offi c ers m a y e n g a g e i n t h es e “T err y
st o ps ” if t h e y h a v e a “r e as o n a bl e s us pi ci o n ” of cri mi n al a cti vit y. S e e U nit e d St at es v. S o k ol o w ,
4 9 0 U. S. 1, 7 ( 1 9 8 9) ( citi n g T err y v. O hi o , 3 9 2 U. S. 1, 3 0 ( 1 9 6 8)).

T his r e as o n a bl e-s us pi ci o n

t est t ur ns o n t h e s a m e t ot alit y of t h e cir c u mst a n c es t h at g o v er ns pr o b a bl e c a us e. S e e U nit e d
St at es v. C ort ez , 4 4 9 U. S. 4 1 1, 4 1 7– 1 8 ( 1 9 8 1).

B ut it r e q uir es l ess t h a n t h e “ pr o b a bilit y or

s u bst a nti al c h a n c e of cri mi n al a cti vit y ” n e c ess ar y f or pr o b a bl e c a us e. W es b y , 1 3 8 S. Ct. at 5 8 6
( cit ati o n o mitt e d); Al a b a m a v.

W h it e, 4 9 6 U. S. 3 2 5, 3 3 0 ( 1 9 9 0).

T h e offi c ers n e e d o nl y

“ a p arti c ul ari z e d a n d o bj e cti v e b asis f or s us p e cti n g t h e p arti c ul ar p ers o n st o p p e d of cri mi n al
a cti vit y. ” K a ns as v. Gl o v er , 1 4 0 S. Ct. 1 1 8 3, 1 1 8 7 ( 2 0 2 0) ( q u oti n g C ort ez , 4 4 9 U. S. at 4 1 7– 1 8).
A n d si n c e pr o b a bl e c a us e its elf “is n ot a hi g h b ar, ” W es b y , 1 3 8 S. Ct. at 5 8 6 ( cit ati o n o mitt e d), it
f oll o ws t h at r e as o n a bl e s us pi ci o n is n ot eit h er, s e e U nit e d St at es v. B ail e y , 7 4 3 F. 3 d 3 2 2, 3 3 2 ( 2 d
Cir. 2 0 1 4).

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 4

U nit e d St at es v. S h e c kl es

T h e S u pr e m e C o urt h as s ai d t h at t h e p oli c e

Pa ge 1 4

m a y i niti at e a T err y st o p w h e n t h e y

r e as o n a bl y s us p e ct t h at “ cri mi n al a cti vit y ‘m a y b e af o ot .’ ” S o k ol o w , 4 9 0 U. S. at 7 ( q u oti n g
T err y , 3 9 2 U. S. at 3 0) ( e m p h asis a d d e d).

B ut w h at d o es t h at a m bi g u o us p hr as e m e a n ?

M ust

offi c ers s us p e ct t h at a cri m e is b ei n g c o m mitt e d ( or is a b o ut t o b e c o m mitt e d) at t h e pr e cis e
m o m e nt t h e y m a k e a st o p ? T err y i n v ol v e d t h at s c e n ari o: a n offi c er b eli e v e d i n di vi d u als w er e i n
t h e pr o c ess of “ c asi n g a j o b ” t o “sti c k-u p ” a st or e. 3 9 2 U. S. at 6. B ut t h e C o urt h as si n c e h el d
t h at T er r y is n ot li mit e d t o s u c h pr e v e nt ati v e p ur p os es.

T h e p oli c e m a y als o e n g a g e i n T err y

st o ps t o i n v esti g at e p ast cri m es. “[I]f p oli c e h a v e a r e as o n a bl e s us pi ci o n, gr o u n d e d i n s p e cifi c
a n d arti c ul a bl e f a cts, t h at a p ers o n t h e y e n c o u nt er w as i n v ol v e d i n or i s w a nt e d i n c o n n e cti o n
wit h a c o m pl et e d f el o n y, t h e n a T err y st o p m a y b e m a d e t o i n v esti g at e t h at s us pi ci o n. ” U nit e d
St at es v. H e nsl e y , 4 6 9 U. S. 2 2 1, 2 2 9 ( 1 9 8 5).
Gi v e n t h e br o a d s c o p e of a p er missi bl e T err y st o p, s e v er al c o urts h a v e all o w e d offi c ers t o
p u ll o v er i n di vi d u als s e e n dri vi n g a w a y fr o m a r esi d e n c e w h e n t h e offi c ers h a v e o bt ai n e d ( or ar e
a b o ut t o o bt ai n) a s e ar c h w arr a nt f or t h e r esi d e n c e.

S e e B ail e y , 7 4 3 F. 3 d at 3 3 3– 3 6; U nit e d

St at es v. M o nti et h , 6 6 2 F. 3 d 6 6 0, 6 6 5– 6 7 ( 4t h Cir. 2 0 1 1); U nit e d St a t es v. B ull o c k, 6 3 2 F. 3 d
1 0 0 4, 1 0 1 4 ( 7t h Cir. 2 0 1 1); U nit e d St at es v. T a yl or , 8 5 7 F. 2 d 2 1 0, 2 1 3 ( 4t h Cir. 1 9 8 8); U nit e d
St at es v. P a nt oj a -S ot o , 7 6 8 F. 2 d 1 2 3 5, 1 2 3 6 ( 1 1t h Cir. 1 9 8 5) ( p er c uri a m).

A d mitt e dl y, t h e

i n di vi d u als h a d l eft t h e pr e mis es s u bj e ct t o t h e s e ar c h w arr a nt, s o t h e y di d n ot f all wit hi n t h e
S u pr e m e C o urt’s bri g ht -li n e r ul e all o wi n g offi c ers t o d et ai n all p e o pl e pr es e nt at a pl a c e t o b e
s e ar c h e d.

S e e B ail e y , 5 6 8 U. S. at 1 9 2– 2 0 2 (li miti n g Mi c hi g a n v. S u m m ers , 4 5 2 U. S. 6 9 2

( 1 9 8 1)).

Y et t h e pr o b a bl e c a us e j ustif yi n g “ a n ar c oti cs s e ar c h w arr a nt ” c a n als o s o m eti m es

pr o vi d e “t h e r e as o n a bl e s us pi ci o n n e c ess ar y t o c o n d u ct a n i n v esti g ati v e st o p of ” i n di vi d u als
“ w h os e s us p e ct e d dr u g tr affi c ki n g [is] t h e t ar g et of t h e w arr a nt. ” M o nti et h , 6 6 2 F. 3 d at 6 6 5; s e e
B ail e y , 7 4 3 F. 3 d at 3 3 3. T h at is s o e v e n if t h e i n di vi d u als w er e n ot e n g a g e d i n a dr u g-tr affi c ki n g
cri m e at t h e s p e cifi c ti m e t h at t h e offi c ers p ull e d o v er t h eir v e hi cl e. S e e B ull o c k , 6 3 2 F. 3 d at
1 0 1 4.
T his c as e f alls s q u ar el y wit hi n t h at pr e c e d e nt. T h e offi c ers st o p p e d S h e c kl es as h e l eft
t he

Cr es c e nt

C e ntr e a p art m e nt a n d

P a nt oj a -S ot o , 7 6 8 F. 2 d at 1 2 3 6.

w hil e t h e y

w er e o bt ai ni n g a s e ar c h

w arr a nt. Cf.

B y t h e n, t h e y h a d l e ar n e d all t h e i nf or m ati o n j ustif yi n g t h e

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 5

U nit e d St at es v. S h e c kl es

Pa ge 1 5

w arr a nt, i n cl u di n g S h e c kl es’ s c o n n e cti o n t o t h e Ri v as -L o p e z br ot h ers a n d his s us p e ct e d dr u g
s al es at t h e a p art m e nt. T h e offi c ers als o k n e w t h at S h e c kl es h a d a pri or f el o n y dr u g c o n vi cti o n.
T his e vi d e n c e g a v e t h e m at l e ast a “ p arti c ul ari z e d a n d o bj e cti v e b asis ” t o q u esti o n S h e c kl es
a b o ut his o n g oi n g dr u g tr affi c ki n g.

Gl o v er , 1 4 0 S. Ct. at 1 1 8 7 ( cit ati o n o mitt e d).

T h eir

i n v esti g at or y st o p w as t h us j ustifi e d at its i n c e pti o n.
S h e c kl es r es p o n ds t h at e v e n if t h e offi c ers h a d a r e as o n a bl e s us pi ci o n t h at h e w as
e n g a g e d i n dr u g d e ali n g g e n er all y, “t h er e w as n o pr o of t h at [ h e] w as e n g a g e d i n dr u g tr affi c ki n g
a cti vit y t h at ni g ht, i n his v e hi cl e. ”

A p p ell a nt’s Br. 1 8.

As t h e S e v e nt h Cir c uit n ot e d w h e n

r ej e cti n g t h e s a m e ar g u m e nt, S h e c kl es mis u n d erst a n ds t h e s c o p e of a v ali d T err y st o p. S e e
B ull o c k , 6 3 2 F. 3 d at 1 0 1 4.

Offi c ers m a y st o p a s us p e ct n ot o nl y f or cri mi n al-pr e v e nti o n

p ur p os es, b ut als o f or cri mi n al -i n v esti g ati o n p ur p os es. S e e H e nsl e y , 4 6 9 U. S. at 2 2 9. T h e y d o
n ot n e e d a s p e cifi c s us pi ci o n t h at a s us p e ct e d dr u g d e al er is e n r o ut e t o a dr u g tr a ns a cti o n or i n a
v e hi cl e bri m mi n g wit h dr u gs.
S h e c kl es als o ar g u es t h at t h e i niti al st o p of his v e hi cl e its elf q u alifi e d as a f ull “ arr est ”
t h at r e q uir e d pr o b a bl e c a us e.

B ut it is bl a c k-l ett er l a w t h at T err y a p pli es t o st o ps of dri v ers o n

t h e p u bli c r o a ds j ust as m u c h as it a p pli es t o st o ps of p e d estri a ns o n t h e p u bli c si d e w al ks. S e e
Gl o v er , 1 4 0 S. Ct. at 1 1 8 7. If S h e c kl es is ar g ui n g t h at t h e offi c ers s u bj e cti v el y i nt e n d e d t o arr est
hi m ( n ot si m pl y q u esti o n hi m) w h e n t h e y p ull e d o v er his v e h i cl e, t his cl ai m c o nfli cts wit h t h e
o bj e cti v e n at ur e of t his F o urt h A m e n d m e nt i n q uir y. S e e W hr e n v. U nit e d St at es , 5 1 7 U. S. 8 0 6,
8 1 2 – 1 3 ( 1 9 9 6).

T h e l a wf ul n ess of a st o p d o es n ot t ur n o n t h e s u bj e cti v e “ m oti v ati o n ” of t h e

offi c er m a ki n g it; it t ur ns o n t h e o bj e cti v e f a cts j ustif yi n g t h e st o p.

D e v e n p e c k v. Alf or d ,

5 4 3 U. S. 1 4 6, 1 5 4 ( 2 0 0 4); cf. U nit e d St at es v. M a g n u m , 1 0 0 F. 3 d 1 6 4, 1 7 0 ( D. C. Cir. 1 9 9 6). T h e
offi c ers h er e h a d a p arti c ul ari z e d a n d o bj e cti v e b asis t o u n d ert a k e a bri ef i n v esti g at or y st o p.
2. C o nti n u e d D et e nti o n .

Y et “ a s ei z ur e t h at is l a wf ul at its i n c e pti o n c a n vi ol at e t h e

F o urt h A m e n d m e nt if its m a n n er of e x e c uti o n u nr e as o n a bl y i nfri n g es i nt er ests pr ot e ct e d b y t h e
C o nstit uti o n. ”

Illi n ois v. C a b all es, 5 4 3 U. S. 4 0 5, 4 0 7 ( 2 0 0 5).

T h e p er missi bl e s c o p e a n d

d ur ati o n of a st o p d e p e n ds o n t h e offi c er’s r e as o ns f or u n d ert a ki n g it. S e e R o dri g u ez v. U nit e d
St at es , 5 7 5 U. S. 3 4 8, 3 5 4 ( 2 0 1 5). T a k e, f or e x a m pl e, t h e t y pi c al tr affi c st o p.

O n c e a n offi c er

c o m pl et es t h e n or m al t as ks ass o ci at e d wit h t h e st o p ( e. g., g ets t h e dri v er’s i nf or m ati o n, c h e c ks

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 6

U nit e d St at es v. S h e c kl es

Pa ge 1 6

f or w arr a nts a n d pr o of of i ns ur a n c e, a n d iss u es a ti c k et), t h e offi c er c a n n ot h ol d t h e dri v er t o
i n v esti g at e ot h er cri m es.

S e e i d. at 3 5 5 – 5 7.

At t h e s a m e ti m e, offi c ers oft e n l e ar n n e w

i nf or m ati o n d uri n g t h e st o p— f or e x a m pl e, t h e dri v er mi g ht c o nf ess t o h a vi n g dr u gs i n t h e c ar.
U nit e d St at es v. L ott , 9 5 4 F. 3 d 9 1 9, 9 2 3 ( 6t h Cir. 2 0 2 0).

T his n e w i nf or m ati o n c a n cr e at e

r e as o n a bl e s us pi ci o n t o d et ai n t h e dri v er l o n g er i n or d er t o i n v esti g at e t h e ot h er cri m es . I d.; s e e
als o, e. g. , U nit e d St at es v. Wi nt ers , 7 8 2 F. 3 d 2 8 9, 2 9 7 ( 6t h Cir. 2 0 1 5); U nit e d St at es v. D a vis ,
4 3 0 F. 3 d 3 4 5, 3 5 4 – 5 5 ( 6t h Cir. 2 0 0 5); U nit e d St at es v. Hill , 1 9 5 F. 3 d 2 5 8, 2 7 2– 7 3 ( 6t h Cir.
1 9 9 9).
T h es e pri n ci pl es d o n ot h el p S h e c kl es.

W e n e e d n ot d e ci d e w h at w o ul d h a v e b e e n t h e

p er missi bl e s c o p e a n d d ur ati o n of t h e i niti al st o p t o i n v esti g at e S h e c kl es’s dr u g d e ali n g b e c a us e
t h e offi c ers i m m e di at el y l e ar n e d si g nifi c a nt n e w i nf or m ati o n w h e n t h e y a p pr o a c h e d his v e hi cl e.
Cf. B ail e y , 7 4 3 F. 3 d at 33 6 – 3 9; B ull o c k , 6 3 2 F. 3 d at 1 0 1 4– 1 7.

T h e y s m ell e d m arij u a n a,

s us p e ct e d t h at t h e v e hi cl e c o nt ai n e d dr u gs, a n d c all e d f or a K -9 u nit. S h e c kl es’s d et e nti o n fr o m
t his p oi nt u ntil t h e K-9 u nit arri v e d a b o ut 4 8 mi n ut es l at er w as b as e d o n t h e n e w s us pi ci o n t h at
S h e c kl es h a d dr u gs i n his v e hi cl e. T h at s us pi ci o n w as e mi n e ntl y r e as o n a bl e. I n d e e d, o ur c o urt
h as r e p e at e dl y h el d t h at offi c ers h a v e pr o b a bl e c a us e t o s e ar c h a v e hi cl e “ w h e n t h e y d et e ct t h e
o d or of ill e g al m arij u a n a c o mi n g fr o m ” it. U nit e d St at es v. Br o o ks , 9 8 7 F. 3 d 5 9 3, 5 9 9– 6 0 0 ( 6t h
Cir. 2 0 2 1) ( citi n g c as es).

T h e n e w i nf or m ati o n pr o vi d e d at l e ast t h e r e as o n a bl e s us pi ci o n

r e q uir e d t o e xt e n d t h e st o p f or a K-9 u nit t o arri v e, es p e ci all y c o nsi d eri n g t h at t h e offi c ers w er e
alr e a d y i n v esti g ati n g S h e c kl es f or dr u g -tr affi c ki n g cri m es. S e e L ott , 9 5 4 F. 3 d at 9 2 2– 2 3.

And

aft er t h e p oli c e d o g al ert e d t o c o ntr a b a n d, offi c ers f o u n d a h a n d g u n i n t h e c e nt er c o ns ol e. At t h at
p oi nt t h e y h a d pr o b a bl e c a us e t o arr est S h e c kl es, a f el o n w h o c o ul d n ot p oss ess fir e ar ms.
S h e c kl es r es p o n ds t h at t h e 4 8 -mi n ut e w ait f or t h e K -9 u nit tr a nsf or m e d t his i n v esti g ati v e
st o p i nt o a f ull-s c al e arr est r e q uiri n g pr o b a bl e c a us e.

A n i n v esti g ati v e st o p c ert ai nl y “ c a n

b e c o m e u nl a wf ul if it is pr ol o n g e d b e y o n d t h e ti m e r e as o n a bl y r e q uir e d ” t o s er v e its p ur p os e.
C a b all es , 5 4 3

U. S. at 4 0 7.

T h e S u pr e m e

C o urt r ei nf or c e d t his p oi nt

w h e n it f o u n d

i m p er missi bl e a 9 0-mi n ut e w ait f or a dr u g -s niffi n g d o g t o s e ar c h a d et ai n e d tr a v el er’s l u g g a g e at
a n air p ort. U nit e d St at es v. Pl a c e , 4 6 2 U. S. 6 9 6, 7 0 9 – 1 0 ( 1 9 8 3).

B ut t h e offi c ers i n t his c as e

li k el y h a d pr o b a bl e c a us e ( n ot j ust r e as o n a bl e s us pi ci o n) fr o m t h e s m ell of t h e m arij u a n a.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6
S e e Br o o ks , 9 8 7 F. 3 d at 5 9 9.

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 7

U nit e d St at es v. S h e c kl es

Pa ge 1 7

B esi d es, e v e n u n d er T err y , w e a n d ot h er c o urts h a v e r e p e at e dl y

u p h el d v e hi cl e st o ps of l e ss t h a n ( a n d s o m eti m es e v e n m or e t h a n) a n h o ur. S e e, e. g. , U nit e d
St at es v. P er ez , 4 4 0 F. 3 d 3 6 3, 3 7 3 ( 6t h Cir. 2 0 0 6); D a vis , 4 3 0 F. 3 d at 3 5 4– 5 5; U nit e d St at es v.
Ors oli ni , 3 0 0 F. 3 d 7 2 4, 7 3 0 ( 6t h Cir. 2 0 0 2); s e e als o, e. g. , U nit e d St at es v. R e e d y , 9 8 9 F. 3 d 5 4 8,
5 5 3 – 5 4 ( 7t h Cir. 2 0 2 1); U nit e d St at es v. S al g a d o , 7 6 1 F. 3 d 8 6 1, 8 6 6 ( 8t h Cir. 2 0 1 4); U nit e d
St at es v. D a vis , 1 1 3 F. A p p’ x 5 0 0, 5 0 2 – 0 3 ( 3 d Cir. 2 0 0 4); U nit e d St at es v. H ar d y , 8 5 5 F. 2 d 7 5 3,
7 6 1 ( 1 1t h Cir. 1 9 8 8). S h e c kl es als o h as m a d e n o ar g u m e nt t h at t h e offi c ers w er e i nt e nti o n all y or
n e gli g e ntl y dil at or y.
S h e c kl es n e xt cl ai ms t h at h e h a d alr e a d y b e e n arr est e d w h e n t h e offi c ers f o u n d t h e
h a n d g u n b e c a us e t h e y pl a c e d hi m i n h a n d c uffs b ef or e t h e n. Y et h a n d c uffi n g “ d o es n ot aff e ct t h e
l e giti m a c y of t h e T err y st o p ” as l o n g as t h e f a cts j ustif y t h e pr e c a uti o n. U nit e d St at es v. M ar x e n ,
4 1 0 F. 3 d 3 2 6, 3 3 2 ( 6t h Cir. 2 0 0 5); H o ust o n v. Cl ar k C nt y. S h eriff D e p ut y J o h n D o es 1 – 5 , 1 7 4
F. 3 d 8 0 9, 8 1 5 ( 6t h Cir. 1 9 9 9); cf. U nit e d St at es v. L o p ez -Ari as , 3 4 4 F. 3 d 6 2 3, 6 2 7– 2 8 ( 6t h Cir.
2 0 0 3). T h e offi c ers c o ul d c o n cl u d e t h at t h e f a cts w arr a nt e d it h er e.

Alt h o u g h t h e r e c or d l e a v es

u n cl e ar w h e n t h e offi c ers a ct u all y h a n d c uff e d S h e c kl es d uri n g t h is e n c o u nt er, t h er e is n o dis p ut e
t h at t h e y di d s o b e c a us e of his “ a ni m at e d ” or “ a g gr a v at e d ” b e h a vi or o n t h e si d e of t h e r o a d. Cf.
U nit e d St at es v. At c hl e y , 4 7 4 F. 3 d 8 4 0, 8 4 9 ( 6t h Cir. 2 0 0 7). I n a d diti o n, t h e offi c ers w er e
i n v esti g ati n g S h e c kl es f or s erio us off e ns es, n ot a m o vi n g vi ol ati o n. Cf. M ar x e n , 4 1 0 F. 3 d at 3 3 2.
S h e c kl es als o d o u bts t h e si n c erit y of t h e offi c ers’ cl ai m t h at t h e y s m ell e d m arij u a n a.
“ B ut t his f a ct u al d e b at e w as f or t h e distri ct c o urt t o r es ol v e. ” Br o o ks , 9 8 7 F. 3 d at 5 9 9. A n d t h e
distri ct c o urt f o u n d t h eir t esti m o n y cr e di bl e. S h e c kl es , 2 0 1 9 W L 3 2 5 6 3 7, at * 5– 6.

Gi v e n o n e

offi c er’s u n a m bi g u o us r e c oll e cti o n t h at t h er e w as a “r e all y str o n g o d or of m arij u a n a, ” t h e c o urt’s
c o n cl usi o n w as n ot cl e arl y err o n e o us.
S wit c hi n g t o pi cs, S h e c k l es l astl y ar g u es t h at t h e offi c ers q u esti o n e d hi m d uri n g t h e st o p
i n vi ol ati o n of Mir a n d a v. Ariz o n a , 3 8 4 U. S. 4 3 6 ( 1 9 6 6).

T h e m a gistr at e j u d g e f o u n d his

c h all e n g e m o ot b e c a us e t h e g o v er n m e nt sti p ul at e d t h at it w o ul d n ot i ntr o d u c e t h e st at e m e nts at
tri al. S e e S h e c kl es , 2 0 1 8 W L 7 2 9 7 8 6 7, at * 5 n. 4; cf. U nit e d St at es v. Si ms , 6 0 3 F. A p p’ x 4 7 9,
4 8 3 – 8 4 ( 6t h Cir. 2 0 1 5). S h e c kl es di d n ot o bj e ct t o t his c o n cl usi o n i n t h e distri ct c o urt or r es p o n d
t o t h e g o v er n m e nt’s i d e nti c al cl ai m o n a p p e al.

W e t h us n e e d n ot c o nsi d er t h e iss u e.

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 8

U nit e d St at es v. S h e c kl es

Pa ge 1 8

C. S e ar c h of t h e St or a g e U nit
T h at l e a v es S h e c kl es’s c h all e n g e t o t h e st or a g e -u nit s e ar c h, w hi c h r est e d o n t h e c o ns e nt
of his girlfri e n d, Crist al Fl or es.

Alt h o u g h c o ns e nt t o a s e ar c h a v oi ds t h e n e e d f or a w arr a nt or

pr o b a bl e c a us e, t h e c o ns e nt m ust b e v ol u nt ar y a n d m ust c o m e fr o m a p art y wit h a p p ar e nt or
a ct u al a ut h orit y o v er t h e pr e mis es.

S e e Illi n ois v. R o dri g u ez , 4 9 7 U. S. 1 7 7, 1 8 8– 8 9 ( 1 9 9 0);

S c h n e c kl ot h v. B ust a m o nt e , 4 1 2 U. S. 2 1 8, 2 1 9, 2 2 2 ( 1 9 7 3). S h e c kl es att a c ks b ot h as p e cts of a
v ali d c o ns e nt: H e ar g u es t h at Fl or es’s c o ns e nt w as i n v ol u nt ar y a n d t h at s h e l a c k e d a ut h orit y o v er
t h e st or a g e u nit.
1. W as Fl or es’s c o ns e nt v ol u nt ar y ?

T h e g o v er n m e nt m ust pr o v e t h at a p art y c o ns e nt e d

t o a s e ar c h b y a pr e p o n d er a n c e of t h e e vi d e n c e. S e e U nit e d St at es v. L e e , 7 9 3 F. 3 d 6 8 0, 6 8 5 ( 6t h
Cir. 2 0 1 5).

T o b e v ali d, t h e c o ns e nt m ust b e “ v ol u nt ar y, u n e q ui v o c al, s p e cifi c, i nt elli g e ntl y

gi v e n, a n d u n c o nt a mi n at e d b y d ur ess or c o er ci o n. ” U nit e d St at es v. Al e x a n d er , 9 5 4 F. 3 d 9 1 0,
9 1 8 ( 6t h Cir. 2 0 2 0) ( q u oti n g U nit e d St at es v. C a ni p e , 5 6 9 F. 3 d 5 9 7, 6 0 2 ( 6t h Cir. 2 0 0 9)).

W he n

d e ci di n g w h et h er a p art y’s c o ns e nt w as fr e el y gi v e n or c o er ci v el y e xtr a ct e d, a c o urt s h o ul d
c o nsi d er t h e t ot alit y of t h e cir c u mst a n c es, i n cl u di n g, f or e x a m pl e, t h e p art y’s a g e a n d e d u c ati o n
a n d t h e n at ur e of t h e q u esti o ni n g fr o m w hi c h t h e c o ns e nt ori gi n at e d. S c h n e c kl ot h , 4 1 2 U. S. at
2 2 6.

W e r e vi e w t h e fi n di n g t h at a p art y g a v e v ol u nt ar y c o ns e nt f or cl e ar err or. L e e , 7 9 3 F. 3 d at

6 8 4.
T his d ef er e nti al st a n d ar d of r e vi e w r es ol v es t his a p p e al.

N o b o d y dis p ut es t h at Fl or es

si g n e d a c o ns e nt f or m a n d t h us g a v e “s p e cifi c ” a n d “ u n e q ui v o c al ” c o ns e nt.
9 5 4 F. 3 d at 9 1 8.

S e e Al e x a n d er ,

B ut t h e p arti es p ai nt st ar kl y diff er e nt pi ct ur es of t h e s c e n e fr o m w hi c h t his

c o ns e nt ar os e. Fl or es n ot e s t h at s o m e ni n e t o t e n offi c ers b ar g e d i nt o h er a p art m e nt wit h g u ns
dr a w n i n t h e d ar k of ni g ht, t h at s h e w as pr e g n a nt, u n dr ess e d, a n d asl e e p wit h a s m all c hil d, t h at
s h e w as q u esti o n e d f or a n h o ur, a n d t h at s h e w as s c ar e d a n d si m pl y w a nt e d t h e offi c ers t o l e a v e.
T h e offi c ers r es p o n d t h at t h e at m os p h er e w as n ot h ostil e b y t h e ti m e t h at Fl or es s p o k e wit h t h e m,
t h at s h e p olit el y a n d c o o p er ati v el y dis c uss e d t h e st or a g e u nit, a n d t h at t h e y di d n ot t hr e at e n h er
i n a n y w a y.

T h e m a gistr at e j u d g e ( w h os e fi n di n gs t h e distri ct c o urt a d o pt e d) r es ol v e d t h es e

c o ntr asti n g p ortr aits of t h e s c e n e b y si di n g wit h t h e offi c ers.

T h e j u d g e n ot e d t h at t h e i niti al

“ dis pl a ys of f or c e, ” w hil e “st artli n g, ” “t o o k pl a c e l o n g b ef or e Fl or es si g n e d t h e c o ns e nt f or m ”

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 1 9

U nit e d St at es v. S h e c kl es

Pa ge 1 9

a n d t h at “[ e] v e nts cl os er t o h er writt e n c o ns e nt w er e m u c h m or e c or di al. ” S h e c kl es , 2 0 1 8 W L
7 2 9 7 8 6 7, at * 7. T h e j u d g e a d d e d t h at t h e offi c ers c al m y s p o k e wit h Fl or es, t ol d h er t h at s h e w as
n ot u n d er i n v esti g ati o n, a n d n e v er “t hr e at e n e d or y ell e d at h er. ” I d.
Gi v e n t h es e fi n di n gs, t h e j u d g e di d n ot cl e arl y err w h e n c o n cl u di n g t h at Fl or es c o ns e nt e d
t o t h e s e ar c h wit h o ut c o er ci o n. S e e U nit e d St at es v. P err y , 7 0 3 F. 3 d 9 0 6, 9 0 9 ( 6t h Cir. 2 0 1 3)
( a br o g at e d o n ot h er gr o u n ds). I n f a ct, m a n y d e cisi o ns h a v e u p h el d c o ns e nt s e ar c h es w h e n t h e
offi c ers’ i niti al “s h o w of f or c e ” h a d “ dissi p at e d ” b y t h e ti m e t h e p art y g a v e c o ns e nt.

U nit e d

St at es v. W ar wi c k , 9 2 8 F. 3 d 9 3 9, 9 4 5 ( 1 0t h Cir. 2 0 1 9); s e e, e. g., U nit e d St at es v. S n y p e , 4 4 1 F. 3 d
1 1 9, 1 3 1 – 3 2 ( 2 d Cir. 2 0 0 6); U nit e d St at e s v. B ar n ett , 9 8 9 F. 2 d 5 4 6, 5 5 5– 5 6 ( 1st Cir. 1 9 9 3). I n
t his c as e, t o o, t h e “i niti al m el e e of a g e nts, b a d g es a n d w e a p o ns ” w as n ot s o “i n h er e ntl y c o er ci v e ”
as t o r e n d er a n y l at er c o ns e nt a ut o m ati c all y i n v ali d — n o m att er h o w fr e el y it w as gi v e n or h o w
m u c h ti m e h a d p ass e d. U nit e d St at es v. T a yl or , 3 1 F. 3 d 4 5 9, 4 6 3, 4 6 4 ( 7t h Cir. 1 9 9 4).
I n r es p o ns e, S h e c kl es c o m p ar es t his c as e t o U nit e d St at es v. St ar n es , 5 0 1 F. A p p’ x 3 7 9
( 6t h Cir. 2 0 1 2). St ar n es r e v ers e d a fi n di n g t h at a w o m a n h a d v ol u nt aril y c o ns e nt e d t o a s e ar c h
of h er a p art m e nt w hil e t h e p oli c e r ai d e d it t o arr est h er h us b a n d. I d. at 3 8 8 – 9 0. B ut t h e c o ns e nt
i n St ar n es d o es n ot r es e m bl e t h e c o ns e nt i n t his c as e. T h er e, t h e w o m a n di d n ot t hi n k s h e h a d a
c h oi c e b ut t o c o ns e nt b e c a us e t h e offi c ers w er e al r e a d y i n t h e pr o c ess of s e ar c hi n g h er
a p art m e nt; s h e w as visi bl y “ a n gr y ” a n d “ u ps et ”; a n d s h e w as i n h a n d c uffs u p u ntil j ust b ef or e s h e
g a v e t h e c o ns e nt. I d. at 3 8 9 – 9 0.

H er e, b y c o ntr ast, Fl or es w as c al m.

A c c or di n g t o o n e offi c er,

s h e e v e n s ai d t h at s h e f elt “r eli e v e d a b o ut t h e w h ol e i n ci d e nt. ” S u bst a nti al ti m e h a d als o p ass e d
b et w e e n t h e offi c ers’ str essf ul e ntr a n c e a n d Fl or es’s c o ns e nt.

A n d t h e offi c ers w er e n ot i n t h e

pr o c ess of s e ar c hi n g t h e st or a g e u nit w h e n s h e c o ns e nt e d, s o t h e y di d n ot cr e at e a n y f als e
i m pr essi o n t h at t h e s e ar c h of t h at u nit w as all b ut i n e vit a bl e.
S h e c kl es als o n ot es t h at t h e offi c ers di d n ot i nf or m Fl or es of h er ri g ht t o r ef us e c o ns e nt.
B ut t h e S u pr e m e C o urt h as a d o pt e d a t ot alit y -of -t h e-cir c u mst a n c es t est t o ass ess w h et h e r a
c o ns e nt is v ol u nt ar y. Alt h o u g h “ k n o wl e d g e of t h e ri g ht t o r ef us e c o ns e nt ” is a r el e v a nt f a ct or, it
is n ot “ a n e c ess ar y pr er e q uisit e ” f or fi n di n g v ol u nt ari n ess. S c h n e c kl ot h , 4 1 2 U. S. at 2 3 2. T h e
m a gistr at e j u d g e t h us c orr e ctl y l o o k e d t o t h e t ot alit y of t h e cir c u mst a n c es w h e n fi n di n g t h at
Fl or es c o ns e nt e d.

C a s e: 2 0- 5 0 9 6

D o c u m e nt: 4 4- 2

N o. 2 0 -5 0 9 6

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 2 0

U nit e d St at es v. S h e c kl es

2. Di d Fl or es h a v e a ut h orit y t o c o ns e nt ?

Pa ge 2 0

E v e n if Fl or es v ol u nt aril y c o ns e nt e d t o t h e

s e ar c h of t h e st or a g e u nit, s h e still m ust h a v e h a d t h e p o w er t o d o s o f or t h e s e ar c h t o b e
r e as o n a bl e u n d er t h e F o urt h A m e n d m e nt.
its s e ar c h.

A str a n g er t o a pr o p ert y o b vi o usl y c a n n ot c o ns e nt t o

B ut w h at t y p e of c o n n e cti o n t o t h e pr o p ert y m ust a p art y p oss ess ?

T h e S u pr e m e

C o urt h as h el d t h at t h e c o nstit uti o n al p o w er t o c o ns e nt e xists if t h e p art y h as “ a ct u al ” or
“ a p p ar e nt ” a ut h orit y o v er t h e pr o p ert y. S e e R o dri g u ez , 4 9 7 U. S. at 1 8 8– 8 9; U nit e d St at es v.
A y o u b , 4 9 8 F. 3 d 5 3 2, 5 4 1 ( 6t h Cir. 2 0 0 7).

W e r e vi e w d e n o v o t h e ulti m at e q u esti o n w h et h er t his

a ut h orit y e xist e d ( w hil e r e vi e wi n g a n y f a ct u al fi n di n gs f or cl e ar err or). U nit e d St at es v. H u ds o n ,
4 0 5 F. 3 d 4 2 5, 4 3 1 ( 6t h Cir. 2 0 0 5).
W h at d o es it t a k e f or a p art y t o h a v e “ a ct u al ” a ut h orit y o v er pr o p ert y ?

T h e S u pr e m e

C o urt a d dr ess e d t his q u esti o n at a ti m e w h e n it w as e m p h asi zi n g t h e F o urt h A m e n d m e nt’s
pri v a c y p ur p os es a n d d o w n pl a yi n g pr o p ert y -l a w c o n c e pts (t hi n k of t h e “r e as o n a bl e e x p e ct ati o n
of pri v a c y ” t est f o r a “s e ar c h ”). S e e U nit e d St at es v. M atl o c k , 4 1 5 U. S. 1 6 4, 1 7 1 & n. 7 ( 1 9 7 4);
s e e als o G e or gi a v. R a n d ol p h , 5 4 7 U. S. 1 0 3, 1 1 0 ( 2 0 0 6).

T h e C o urt t h us n ot e d t h at t his

a ut h orit y t o c o ns e nt d o es n ot “r est o n t h e l a w of pr o p ert y, ” M atl o c k , 4 1 5 U. S. at 1 7 1 n. 7,
i n cl u di n g, f or e x a m pl e, o n w h et h er a p ers o n h as a pr o p ert y-l a w ri g ht t o p er mit a n ot h er t o e nt er
wit h o ut c o m mitti n g a tr es p ass, R a n d ol p h , 5 4 7 U. S. at 1 1 0– 1 1.

R at h er, t h e a ut h orit y t o c o ns e nt

d e p e n ds o n t h e “ m ut u al us e of t h e pr o p ert y b y p ers o ns g e n er all y h a vi n g j oi nt a c c ess or c o ntr ol
f or m ost p ur p os es[.] ” R o dri g u ez , 4 9 7 U. S. at 1 8 1 ( q u oti n g M atl o c k , 4 1 5 U. S. at 1 7 1 n. 7). T his
d efi niti o n f oll o ws fr o m a pri v a c y -b as e d p ar a di g m: W h e n a p art y s h ar es pr o p ert y wit h ot h ers, t h e
e ntir e gr o u p h as a r e d u c e d e x p e ct ati o n of pri v a c y b e c a us e t h e gr o u p m e m b ers h a v e “ ass u m e d t h e
ris k t h at o n e of t h eir n u m b er mi g ht p er mit t h e c o m m o n ar e a t o b e s e ar c h e d. ” M atl o c k , 4 1 5 U. S.
at 1 7 1 n. 7.
Si n c e M atl o c k , h o w e v er, t h e S u pr e m e C o urt h as h el d i n ot h er c o nt e xts t h at t h e
pr ot e cti o n s arisi n g fr o m t h e C o urt’s pri v a c y -b as e d a p pr o a c h t o t h e F o urt h A m e n d m e nt h a v e o nl y
“ a d d e d t o , n ot s u bstit ut e d f or , ” t h e pr ot e cti o ns t h at aris e fr o m t h e “tr a diti o n al pr o p ert y-b as e d
u n d erst a n di n g ” of t h e a m e n d m e nt.

Fl ori d a v. J ar di n es , 5 6 9 U. S. 1, 1 1 ( 2 0 1 3) ( citi n g U nit e d

St at es v. J o n es , 5 6 5 U. S. 4 0 0, 4 0 9 ( 2 0 1 2)). S o alt h o u g h a st at e-l a w ri g ht t o all o w ot h ers o nt o a
pr o p ert y m a y n ot b e a s uffi ci e nt c o n diti o n f or a p art y t o p oss ess t h e a ct u al a ut h orit y t o c o ns e nt t o

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 2 1

U nit e d St at es v. S h e c kl es

Pa ge 2 1

a s e ar c h, it mi g ht b e ar g u e d t h at s u c h a ri g ht r e m ai ns a n e c ess ar y c o n diti o n f or s u c h a ut h orit y.
S e e F er n a n d ez v. C alif or ni a , 5 7 1 U. S. 2 9 2, 3 0 8 ( 2 0 1 4) ( S c ali a, J., c o n c urri n g).

B ut S h e c kl es

d o es n ot ar g u e t h e p oi nt h er e s o w e n e e d n ot a d dr ess w h et h er t his r e c e nt c as el a w aff e cts c o ns e nt
s e ar c h es.
E v e n s o, “[t] h e m e a ni n gs of ‘ m ut u al us e’ a n d ‘j oi nt a c c ess’ ar e f ar fr o m cl e ar ” u n d er
M atl o c k ’s a ct u al-a ut h orit y t est. U nit e d St at es v. C h ai d ez , 9 1 9 F. 2 d 1 1 9 3, 1 2 0 2 ( 7t h Cir. 1 9 9 0).
It is t h us us ef ul t o c o nsi d er h o w c o urts h a v e a p pli e d t his t est t o st or a g e u nits. T h e y h a v e h el d
t h at a p art y h as a ct u al a ut h orit y t o c o ns e nt t o a st or a g e-u nit s e ar c h w h e n t h e p art y h as a ri g ht t o
e nt er t h e u nit u n d er t h e t er ms of t h e r e nt al a gr e e m e nt wit h t h e st or a g e f a cilit y. S e e U nit e d St at es
v. S mit h , 3 5 3 F. A p p’ x 2 2 9 , 2 3 0– 3 1 ( 1 1t h Cir. 2 0 0 9) ( p er c uri a m); U nit e d St at es v. Tr ott er ,
4 8 3 F. 3 d 6 9 4, 6 9 9 ( 1 0t h Cir. 2 0 0 7) (j u d g m e nt v a c at e d o n ot h er gr o u n ds); U nit e d St at es v. C a m p ,
1 5 7 F. A p p’ x 1 2 1, 1 2 2 – 2 3 ( 1 1t h Cir. 2 0 0 5) ( p er c uri a m); U nit e d St at es v. Ki m , 1 0 5 F. 3 d 1 5 7 9,
1 5 8 2 ( 9t h Cir. 1 9 9 7); U nit e d St at es v. W arr e n , 1 8 F. 3 d 6 0 2, 6 0 3– 0 4 ( 8t h Cir. 1 9 9 4). I n o n e c as e,
a c o urt f o u n d a ct u al a ut h orit y w h e n t h e d ef e n d a nt i nstr u ct e d a t hir d p art y t o l e as e st or a g e u nits i n
t h e t hir d p art y’s n a m e, a n d t h e t hir d p art y o c c asi o n all y s up er vis e d t h e l o a di n g of g o o ds i nt o t h e
u nits. Ki m , 1 0 5 F. 3 d at 1 5 8 2.

A ct u al a ut h orit y e xist e d, t h e c o urt h el d, e v e n t h o u g h t h e t hir d

p art y di d n ot us u all y p oss ess t h e k e y a n d c o ul d n ot o p e n t h e u nits. I d. I n a n ot h er c as e, a c o urt
f o u n d a ct u al a ut h orit y w h e n t h e d ef e n d a nt h a d his girlfri e n d l e as e t h e st or a g e u nit i n h er n a m e
a n d s h e st or e d s o m e it e ms i n t h e u nit. S e e C a m p , 1 5 7 F. A p p’ x at 1 2 2 – 2 3. T h e c o urt r e a c h e d
t his c o n cl usi o n e v e n aft er t h e d ef e n d a nt h a d c h a n g e d t h e l o c ks a n d d e ni e d his girlfri e n d a c c ess t o
t h e u nit. I d.
T his c as el a w d e m o nstr at es t h at Fl or es h a d a ct u al a ut h orit y o v er t h e st or a g e u nit.

T he

st or a g e f a cilit y’s r e c or ds s h o w e d t h at S h e c kl es i d e ntifi e d Fl or es as h a vi n g a ut h ori z e d a c c ess t o
t h e u nit u n d er his r e nt al a gr e e m e nt. S e e S h e c k l es, 2 0 1 8 W L 7 2 9 7 8 6 7, at * 7 & n. 6. Fl or es t h us
h a d a l e g al ri g ht t o e nt er a n d st or e it e ms i n t h e u nit. Cf. W arr e n , 1 8 F. 3 d at 6 0 3– 0 4. T his ri g ht
of a c c ess w o ul d li k el y s atisf y a n y s ort of pr o p ert y -b as e d a p pr o a c h. S e e J o n es , 5 6 5 U. S. at 4 0 9.
I n a d diti on, Fl or es e x er cis e d h er s h ar e d ri g ht of a c c ess b y usi n g t h e u nit. S h e t ol d offi c ers t h at
s h e h a d b e e n t o t h e u nit t o st or e cl ot h es a n d o n e -d oll ar bills f or h er d a u g ht er, a n d t h e offi c ers
dis c o v er e d t h es e it e ms t h er e. T h eir m ut u al us e of t h e u nit a n d S h e c kl es’s d e cisi o n t o list h er o n

C a s e: 2 0- 5 0 9 6
N o. 2 0 -5 0 9 6

D o c u m e nt: 4 4- 2

Fil e d: 0 4/ 3 0/ 2 0 2 1

P a g e: 2 2

U nit e d St at es v. S h e c kl es

Pa ge 2 2

t h e r e nt al a gr e e m e nt pr o v e t h at h e “ ass u m e d t h e ris k ” t h at Fl or es w o ul d i n vit e ot h ers t o e x a mi n e
it u n d er M atl o c k ’s pri v a c y-b as e d a p pr o a c h. Ki m , 1 0 5 F. 3 d at 1 5 8 2; s e e M atl o c k, 4 1 5 U. S. at 1 7 1
n. 7.
S h e c kl es r es p o n ds t h at t h e offi c ers di d n ot o bt ai n t h e st or a g e f a cilit y’s r e c or ds c o nfir mi n g
t h at Fl or es h a d a ri g ht t o e nt er a n d us e t h e st or a g e u nit u ntil aft er t h eir s e ar c h.
Fl or es l a c k e d a p p ar e nt a ut h orit y t o c o ns e nt at t h e ti m e of t h e s e ar c h.

H e a d ds t h at

A p p ar e nt a ut h orit y e xists

w h e n “t h e f a cts a v ail a bl e t o t h e offi c er at t h e m o m e nt ” w o ul d l e a d a r e as o n a bl e offi c er t o b eli e v e
t h at a p art y h a d a ct u al a ut h orit y. R o dri g u ez , 4 9 7 U. S. at 1 8 8 ( cit ati o n o mitt e d). S h e c kl es cl ai ms
t h at t h e f a cts t h at t h e offi c ers k n e w at t h e ti m e— t h at Fl or es “ h a d st uff ” at t h e u nit b ut di d n ot
h a v e a k e y — w o ul d n ot p er mit a r e as o n a bl e offi c er t o b eli e v e t h at s h e h a d a ct u al a ut h orit y. B ut
w e n e e d n ot a d dr ess t his a p p ar e nt -a ut h orit y q u esti o n.

Cf. U nit e d St at es v. B ur c h a m , 3 8 8

F. A p p’ x 4 7 8, 4 8 2 ( 6t h Cir. 2 0 1 0). E v e n ass u mi n g t h at Fl or es l a c k e d a p p ar e nt a ut h orit y w h e n
t h e offi c ers q u esti o n e d h er, a v ali d c o ns e nt s e ar c h r e q uir es eit h er a ct u al a ut h orit y or a p p ar e nt
a ut h orit y; it d o es n ot r e q uir e b ot h. S e e C h ai d ez , 9 1 9 F. 2 d at 1 2 0 1; s e e als o U nit e d St a t es v.
G ar d n er , 8 8 7 F. 3 d 7 8 0, 7 8 3 ( 6t h Cir. 2 0 1 8). T h e S u pr e m e C o urt m a d e t his p oi nt i n R o dri g u ez
w h e n it h el d t h at a c o ns e nt s e ar c h w o ul d vi ol at e t h e F o urt h A m e n d m e nt if t h e p oli c e l a c k e d
a p p ar e nt a ut h orit y, “ u nl ess a ut h orit y a ct u all y e xists. ”

4 9 7 U. S. at 1 8 9.

A ut h orit y a ct u all y

e xist e d h er e.
D o es it m att er, t h o u g h, t h at t h e offi c ers di d n ot dis c o v er Fl or es’s a ct u al a ut h orit y u ntil
aft er t h e y s e ar c h e d t h e u nit ? I n r aisi n g t his cl ai m, S h e c kl es att e m pts t o i m p ort i nt o t his a ct u al a ut h orit y q u esti o n t h e a p p ar e nt -a ut h orit y r e q uir e m e nt t o c o nsi d er o nl y t h e f a cts t h at t h e offi c ers
k n e w “ at t h e m o m e nt ” t h e y o bt ai n e d c o ns e nt.

S e e i d. at 1 8 8 ( cit ati o n o mitt e d).

Y et a ct u al

a ut h orit y d e p e n ds o n t h e a ct u al f a cts; o nl y a p p ar e nt a ut h orit y d e p e n ds o n t h e offi c ers’
r e as o n a bl e (if

mist a k e n) “i m pr essi o ns of t h e f a cts. ”

A y o u b , 4 9 8 F. 3 d at 5 4 1 ( e m p h asis

a d d e d); cf. R est at e m e nt ( S e c o n d) of A g e n c y § 4 9( a) ( A m. L. I nst. 1 9 5 8). T h e a ct u al f a cts i n t his
c as e — i n cl u di n g, m ost n ot a bl y, Fl or es’s a ut h ori z e d a c c ess u n d er t h e r e nt al a gr e e m e nt— pr o v e
a ct u al a ut h orit y.
W e affir m.

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 1 of 1 1 P a g eI D #: 4 2 4

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F K E N T U C K Y
L O UI S VI L L E DI VI SI O N
U NI T E D S T A T E S O F A M E RI C A

Pl ai ntiff

v.

Cri mi n al A cti o n N o. 3: 1 7 C R -0 0 1 0 4 -0 1 -R GJ

D W Y A NE S HE C KLES

D ef e n d a nt
* * * * *
M E M O R A N D U M O PI NI O N & O R D E R

T his m att er c o m es b ef or e t h e C o urt o n D ef e n d a nt , D w a y n e S h e c kl es ’s, t w o M oti o n s t o
S u p pr ess . [ D E 3 3, D E 6 8 ]. D ef e n d a nt fil e d his first M oti o n t o S u p pr ess o n J a n u ar y 1 6, 2 0 1 8.
[ D E 3 3]. S u bs e q u e ntl y, aft er m oti o ns f or dis c o v er y a n d c o nti n u a n c e w er e fil e d, a n e vi d e nti ar y
h e ari n g w as h el d o n A pril 2 7, 2 0 1 8. [ D E 5 5].

A s e c o n d h e ari n g o n t h e s u p pr essi o n m att er w as

h el d o n M a y 2 1, 2 0 1 8. [ D E 5 8]. S h e c kl es fil e d a s e c o n d M oti o n t o S u p pr ess o n A u g ust 3 1, 2 0 1 8.
[ D E 6 8]. Pl ai ntiff, t h e U nit e d St at es of A m eri c a, fil e d ti m el y r es p o ns es t o t h e M oti o ns t o S u p pr ess,
[D E 3 4, 7 2, 7 3 ], a n d a R e pl y w as fil e d b y S h e c kl es o n S e pt e m b er 2 8, 2 0 1 8 . [ D E 7 6]. O n
N o v e m b er 1 1 , 2 0 1 8, U nit e d St at es M a gistr at e J u d g e C oli n H. Li n ds a y iss u e d a Fi n din gs of F a ct,
C o n cl usi o ns of L a w , a n d R e c o m m e n d ati o n ( “R & R ”) o n t h e r e m ai ni n g iss u es, r e c o m m e n di n g t h at
t h e M oti o n s t o S u p pr ess b e d e ni e d . [ D E 7 8]. O bj e ct i o ns w er e tim el y fil e d b y D ef e n d a nt. [ D E
7 9 ]. T h es e m att er s ar e n o w ri p e f or a dj u di c ati o n.
F or t h e r e as o ns s et f ort h b el o w, t h e C o urt O V E R R U L E S D ef e n d a nt’s O bj e cti o ns [ D E 7 9],
A C C E P T S M a gistr at e J u d g e

Li n ds a y’s R & R wit h o ut m o difi c ati o n

D ef e n d a nt’s M oti o ns t o S u p pr ess [ D E 3 3, 6 8] .

1

[ D E 7 8] a n d D E NI E S

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 2 of 1 1 P a g eI D #: 4 2 5

DI S C U S SI O N
S h e c kl es m a k es n o o bj e cti o ns t o t h e R & R’s f a ct u al fi n di n gs. [ D E 7 8]. A s s u c h, t h os e
f a ct u al fi n di n gs ar e i n c or p or at e d b y r ef er e n c e a n d r eli e d o n as tr u e f or p ur p os es of dis c ussi n g
S h e c kl es ’s o bj e cti o ns t o t h e M a gistr at e J u d g e Li n ds a y’s l e g al a n al ysis.
A. St a n d a r d Of R e vi e w .
P urs u a nt t o 2 8 U. S. C. § 6 3 6( b)( 1)( B) a n d F e d er al R ul e of Cri mi n al Pr o c e d ur e 5 9 ( b)( 1), a
distri ct c o urt m a y r ef er a m oti o n t o s u p pr ess t o a M a gistr at e Ju d g e t o c o n d u ct a n e vi d e nti ar y
h e ari n g , if n e c ess ar y, a n d s u b mit pr o p os e d fi n di n gs of f a ct a n d r e c o m m e n d ati o ns f or t h e
dis p ositi o n of t h e m oti o n . T his C o urt m ust “ m a k e a d e n o v o d et er mi n ati o n of t h os e p orti o ns of
t h e r e p ort or s p e cifi c pr o p os e d fi n di n gs or r e c o m m e n d ati o ns t o w hi c h o bj e cti o n is m a d e. ” 2 8
U. S. C. § 6 3 6( b)( 1)( C); F e d. R. Cri m. P. 5 9( b)( 3).

Aft er r e vi e wi n g t h e e vi d e n c e, t h e C o urt is fr e e

t o a c c e pt, r ej e ct, or m o dif y t h e pr o p os e d fi n di n gs or r e c o m m e n d ati o ns of t h e M a gistr at e J u d g e.
I d. T h e C o urt , h o w e v er, n e e d n ot r e vi e w, u n d er a d e n o v o or a n y ot h er st a n d ar d, t h os e as p e cts of
t h e r e p ort a n d r e c o m m e n d ati o n t o w hi c h n o s p e cifi c o bj e cti o n is m a d e. T h o m as v. Ar n, 4 7 4 U. S.
1 4 0, 1 5 0 ( 1 9 8 5). R at h er, t h e C o urt m a y a d o pt t h e fi n di n gs a n d r uli n gs of t h e M a gistr at e Ju d g e t o
w hi c h n o s p e cifi c o bj e cti o n is fil e d . I d. at 1 5 1.
B. O bj e cti o n s T o P r o b a bl e C a us e F o r T h e C ell P h o n e L o c ati o n T r a c k e r .
S h e c kl es first o bj e cts t o “t oll a n al ysis ” b ei n g a c c e pt e d as c o ntri b uti n g t o t h e est a blis h m e nt
of pr o b a bl e c a us e f or t h e c ell -p h o n e l o c ati o n tr a c k er i nst e a d of b ei n g dis miss e d as w h oll y
c o n cl us or y. [ D E 7 9, at 4 1 9; D E . 7 8, at 4 0 6 ]. S h e c kl es ar g u es t h at “[t] h e m a gistr at e’s d e t er mi n ati o n
t h at pr o b a bl e c a us e e xist e d r eli e d u p o n t h e ass erti o n t h at ‘Ri v as -L o p e z h a d c o nt a ct e d a dr u g
r e ci pi e nt i n L o uis vill e b y c alli n g t h e t ar g et p h o n e.’ T h e iss ui n g j u d g e w as n ot pr o vi d e d wit h a n y
b asis t o d et er mi n e t h e fa ct u al n at ur e of t h at ass erti o n. . .” [ D E 7 9, at 4 1 9]. T his is t h e e ntir et y of

2

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

S h e c kl es ’s o bj e cti o n o n t his iss u e.

Fil e d 0 1/ 2 5/ 1 9

P a g e 3 of 1 1 P a g eI D #: 4 2 6

M or e o v er, t his is i d e nti c al t o t h e ar g u m e nt m a d e b y t h e

D ef e n d a nt i n his M oti o n t o S u p pr ess. [ D E 3 3, at 1 2 1; 3 3 -2 at 1 3 3 ].
A n “ o bj e cti o n . . . t h at

m er el y r eit er at es ar g u m e nts pr e vi o usl y pr es e nt e d, d o es n ot

a d e q u at el y i d e ntif y all e g e d err ors o n t h e p art of t h e m a gistr at e j u d g e. ” Alt y g v. B err y hill , N o. 1 61 1 7 3 6, 2 0 1 7 W L 4 2 9 6 6 0 4, at * 1 ( E. D. Mi c h. S e pt. 2 8, 2 0 1 7). T h er ef or e, S h e c kl es’ s r e p etiti o n of
t h e ar g u m e nts alr e a d y m a d e i n his M oti o n t o S u p pr ess is i ns uffi ci e nt t o q u alif y as a n o bj e cti o n. As
s u c h, t h e C o urt n e e d n ot c o n d u ct a d e n o v o r e vi e w of t h e M a gistr at e J u d g e's r e p ort wit h r e g ar d t o
S h e c kl es’ s first o bj e cti o n. Ells v. C ol vi n , N o. 3: 1 6-C V -0 0 6 0 4 -T B R, 2 0 1 8

W L 1 5 1 3 6 7 4, at * 2

( W. D. K y. M ar. 2 7, 2 0 1 8).
H o w e v er, e v e n if t h e C o urt w er e t o c o nsi d er t h e m erits of t his o bj e cti o n a n d c o n d u ct a d e
n o v o r e vi e w, t h e R & R is w ell-r e as o n e d o n t his iss u e.

W h e n a d ef e n d a nt c h all e n g es t h e

c o nstit uti o n alit y of a w arr a nt -s u p p ort e d s e ar c h, t h e c o urt m ust “si m pl y . . . e ns ur e t h at t h e
m a gistr at e h a d a s u bst a nti al b asis f or c o n cl u di n g t h at pr o b a bl e c a us e e xist e d. ” U nit e d St at es v.
L a u g ht o n , 4 0 9 F. 3 d 7 4 4, 7 4 7 ( 6t h Cir. 2 0 0 5). “[ G]r e at d ef er e n c e ” s h o ul d b e a c c or d e d t o t h e
m a gistr at e’s ori gi n al d et er mi n ati o n. U nit e d St at es v. L e o n , 4 6 8 U. S. 8 9 7, 9 1 4 ( 1 9 8 4). A w arr a nt’s
s u p p orti n g affi d a vit est a blis h es pr o b a bl e c a us e if i t c o nt ai ns, o n its f a c e, “f a cts t h at i n di c at e a f air
pr o b a bilit y t h at e vi d e n c e of a cri m e will b e l o c at e d o n t h e pr e mis es of t h e pr o p os e d s e ar c h. ” U nit e d
St at es v. Fr azi er , 4 2 3 F. 3 d 5 2 6, 5 3 1 ( 6t h Cir. 2 0 0 5) (i nt er n al q u ot ati ons o mitt e d). T h os e f a cts m ust
b e p arti c ul ari z e d e n o u g h t o i nf or m t h e r e vi e wi n g m a gistr at e’s pr o b a bl e c a us e d et er mi n ati o n;
“ b oil er pl at e r e cit ati o ns d esi g n e d t o m e et all l a w e nf or c e m e nt n e e ds ” ar e i n a d e q u at e. Illi n ois v.
G at es , 4 6 2 U. S. 2 1 3, 2 3 9 ( 1 9 8 3); U nit e d St at es v. W e a v er , 9 9 F. 3 d 1 3 7 2, 1 3 7 8 (6t h Cir. 1 9 9 8).
Li k e wis e, m er e “s us pi ci o ns, b eli efs or c o n cl usi o ns ” ar e i ns uffi ci e nt. I d.

3

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 4 of 1 1 P a g eI D #: 4 2 7

H er e, t h e d et e cti v e’s affi d a vit r el a y e d d et ail e d, cl e ar , a n d pr e cis e i nf or m ati o n fr o m t h e
u n d er c o v er a g e nt, s p e cifi c all y t h at Mr. Ri v as -L o p e z h a d c o nt a ct e d a dr u g r e ci pi e nt i n L o uis vill e
b y c alli n g t h e t ar g et p h o n e. It w as r e as o n a bl e t o s us p e ct, b e c a us e t h e t ar g et p h o n e w as pr e p ai d,
o w n e d b y a n a n o n y m o us p ers o n , a n d w as us e d t o c o nt a ct a dr u g r e ci pi e nt, t h at tr a c ki n g t h e p h o n e
w o ul d l e a d t o a dr u g tr affi c k er a n d p ossi bl y a st as h l o c ati o n. Aft er c o nsi d eri n g t h e ar g u m e nts of
t h e p arti es, t h e

M a gistr at e J u d g e pr o p erl y c o n cl u d e d t h at pr o b a bl e c a us e e xist e d a n d t h at

D ef e n d a nt's m oti o n t o s u p pr ess s h o ul d b e d e ni e d.
C. O bj e cti o n s T o P r o b a bl e C a us e F o r S e a r c h of S h e c kl es’ s R esi d e n c e .
S h e c kl es p ur p orts t o o bj e ct t o pr o b a bl e c a us e f or t he s e ar c h of his r esi d e n c e o n t hr e e
gr o u n ds. First, S h e c kl es o bj e cts t o t h e c o n cl usi o n t h at t h e t ar g et pi n gi n g o utsi d e t h e a p art m e nt t o
b e s e ar c h e d a n d t h e f a ct t h at S h e c kl es w as s e e n l e a vi n g o n e of t h e a p art m e nts wit h m a n y b a gs w as
s uffi ci e nt t o est a blis h pr o b a bl e c a us e t o s e ar c h. [ D E 7 9, at 4 1 9; D E 7 8, at 4 0 9] . As t o s u p p ort f or
t his ar g u m e nt S h e c kl es m er el y st at es t h at “[s]ur el y t his c a n n ot s uffi c e t o est a blis h a li k eli h o o d of
cr i mi n al a cti vit y.” [ D E 7 9, at 4 1 9]. T his o bj e cti o n is si m pl y f a ct u all y i n a c c ur at e a n d s ets f ort h n o
s p e cifi c err or of t h e M a gistr at e J u d g e. [ D E 7 8, at 4 0 8-0 9].
As st at e d pr e vi o usl y, a n “ o bj e cti o n . . . t h at m er el y r eit er at es ar g u m e nts pr e vi o usl y
pr es e nt e d, d o es n ot a d e q u at el y i d e ntif y all e g e d err ors o n t h e p art of t h e m a gistr at e j u d g e. ” Alt y g ,
2 0 1 7 W L 4 2 9 6 6 0 4, at * 1 . M or e o v er, S h e c kl es ’s p ur p ort e d o bj e cti o n is n ot hi n g m or e t h a n a si m pl e
dis a gr e e m e nt wit h M a gistr at e J u d g e Li n ds a y’s c o n cl usi o n o n t his iss u e . U. S. v. O c a m p o, 9 1 9 F.
S u p p. 2 d 8 9 8, 9 1 0 ( E. D.

Mi c h . 2 0 1 3). “ A n ‘ o bj e cti o n ’ t h at d o es n ot hi n g m or e t h a n st at e a

dis a gr e e m e nt wit h a m a gistr at e's s u g g est e d r es ol uti o n, or si m pl y s u m m ari z es w h at h as b e e n
pr es e nt e d b ef or e, is n ot a n ‘ o bj e cti o n ’ as t h at t er m is us e d i n t his c o nt e xt. ” I d. at 7 4 7. C o ns e q u e ntl y,
th e fili n g of v a g u e, g e n er al, or c o n cl us or y o bj e cti o ns d o es n ot m e et t h e r e q uir e m e nt of s p e cifi c

4

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 5 of 1 1 P a g eI D #: 4 2 8

o bj e cti o ns a n d is t a nt a m o u nt t o a c o m pl et e f ail ur e t o o bj e c t. I d. at 7 4 7 – 4 8 ; S e e als o, Mill er v.
C urri e, 5 0 F. 3 d 3 7 3, 3 8 0 ( 6t h Cir. 1 9 9 5); C ol e v. Y u ki ns, 7 F. A p p' x 3 5 4, 3 5 6 ( 6t h Cir. 2 0 0 1) .
T h e Si xt h Cir c uit h as e x pl ai n e d t h at t his s p e cifi cit y r e q uir e m e nt is n e c ess ar y t o c o ns er v e
j u di ci al r es o ur c es. If r e vi e w of g e n er al o bj e cti o n is p er mitt e d, “[t] h e f u n cti o ns of t h e distri ct c o urt
ar e eff e cti v el y d u pli c at e d as b ot h t h e m a gistr at e a n d t h e distri ct c o urt p erf or m i d e nti c al t as ks. T his
d u pli c ati o n of ti m e a n d eff ort w ast es j u di ci al r es o ur c es r at h er t h a n s a vi n g t h e m a n d r u ns c o ntr ar y
t o t h e pur p os es of t h e M a gistr at es A ct .” H o w ar d v. S e c. of H e alt h a n d H u m a n S v c., 9 3 2 F. 2 d 5 0 5,
5 0 9 ( 6t h Cir. 1 9 9 1). As s u c h, t h e C o urt n e e d n ot c o n d u ct a d e n o v o r e vi e w of t h e M a gistr at e
J u d g e's r e p ort wit h r e g ar d t o t his o bj e cti o n. El ls v. C ol vi n, N o. 3: 1 6-C V -0 0 6 0 4 -T B R, 2 0 1 8 W L
1 5 1 3 6 7 4, at * 2 ( W. D. K y. M ar. 2 7, 2 0 1 8).
E v e n if t h e C o urt w er e t o c o nsi d er t h e m erits of t his o bj e cti o n , t h e R & R is w ell-r e as o n e d
o n t his iss u e. T h e t ar g et p h o n e n u m b er h a d alr e a d y b e e n s uffi ci e ntl y c o n n e ct e d t o a n o n g oi n g dr u g
o p er ati o n i n L o uis vill e. D et e cti v es h a d r eli e d o n “ pr e cis e i nf or m ati o n fr o m a n u n d er c o v er a g e nt:
t h at Ri v as-L o p e z h as c o nt a ct e d a dr u g r e ci pi e nt i n L o uis vill e b y c alli n g t h e t ar g et p h o n e. It w as
r e as o n a bl e t o s us p e ct t h at t h e t ar g et p h o n e, b e c a us e it w as pr e p ai d a n d o w n e d b y a n a n o n y m o us
p ers o n, w as b ei n g us e d f or dr u g a cti vit y. ” [ D E 7 8, at 4 0 6 -0 7]. T h er e w as a “f air pr o b a bilit y t h at
tr a c ki n g t h e p h o n e w o ul d l e a d t h e m t o a dr u g tr affi c k er a n d his st as h l o c ati o n. ” [ D E 7 8, at 4 0 7].
B e c a us e it w as r e as o n a bl e t o s us p e ct t h at t h e p h o n e w as b ei n g us e d f or dr u g a cti vit y a n d a f air
pr o b a bilit y t h at t h e p h o n e c o ul d l e a d t h e m t o t h e tr affi c k er a n d t h e st as h l o c ati o n, t h e f a ct t h at t h e
t ar g et p h o n e w as pi n gi n g o utsi d e t h e a p art m e nts t o b e s e ar c h e d w as r el e v a nt t o t h e est a blis h m e nt
of pr o b a bl e c a us e.
A d diti o n all y, t h e t ar g et p h o n e pi n gi n g o ut si d e t h e a p art m e nts t o b e s e ar c h e d a n d t h e f a ct
t h at S h e c kl es w as s e e n l e a vi n g o n e of t h e a p art m e nts wit h m a n y b a gs w er e n ot t h e o nl y f a cts r eli e d

5

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 6 of 1 1 P a g eI D #: 4 2 9

u p o n t o est a blis h pr o b a bl e c a us e. T h e c o urt r eli e d u p o n m a n y f a cts i n cl u di n g: S h e c kl es ’s pri or
dr u g tr affi c ki n g c o n vi cti o n [ D E 5 6, at 2 4 6], his pr es e n c e at t h e S al mir o n st as h h o us e i n 2 0 1 6 [ D E
5 6, at 1 8 7], G P S pi n gs of t h e t ar g et p h o n e at t w o a p art m e nts – T err a c e Cr e e k a n d Cr es c e nt C e ntr e
[ D E 5 6, at 1 9 2-9 4; D E 5 9, at 2 8 1], o bs er v ati o n of S h e c kl es ’s r e nt al c ar at b ot h a p art m e nts [ D E 3 3 3, at 1 3 8 -3 9], o bs er v ati o n of S h e c kl es ’s w al ki n g i n a n d o ut of Cr es c e nt C e ntr e wit h m a n y b a gs
[ D E 3 3-3, at 1 3 9], a n a n o n y m o us c o m pl ai nt of a Cr es c e nt C e ntr e e m pl o y e e a b o ut dr u g a cti vit y i n
a p art m e nt 2 3 4 [ D E 5 9, at 2 7 8 -8 0], t h e s m ell of m ar ij u a n a c o mi n g fr o m a p art m e nt 2 3 4 [ D E 5 9, at
2 8 0], a n d t h e f a ct t h at S h e c kl es ’s r e nt al c ar w as p ar k e d i n t h e Cr es c e nt C e ntr e g ar a g e i n t h e p ar ki n g
s p ot r es er v e d f or a p art m e nt 2 3 4 [ D E 5 6, at 1 9 2 -9 4; D E 5 9, at 2 8 1]. All of t h es e f a cts t a k e n t o g et h er
s u p p ort a fi n di n g of pr o b a bl e c a us e.
S e c o n d , S h e c kl es o bj e cts t o t h e “ a c c e pt a n c e of t h e ‘ c h ar a ct eri z ati o n of S h e c kl es as a
k n o w n n ar c oti cs tr affi c k er’ ” t o j ustif y pr o b a bl e c a us e t o s e ar c h his r esi d e n c e, s p e cifi c all y
cl arif yi n g t h at t h e affi d a vit m e nti o ns hi m as a “ ki l o gr a m n ar c oti cs tr affi c k er ” w h e n his 2 0 0 5
c o n vi cti o n w as f or l ess t h a n a kil o gr a m . [ D E 7 9, at 4 1 9; D E 7 8, at 4 0 9 ]. W hil e S h e c kl es dis a gr e es
wit h t his c h ar a ct eri z ati o n as a “ k n o w n n ar c oti cs tr affi c k er, ” t h e t er mi n ol o g y us e d i n t h e R & R, t his
ar g u m e nt is dir e ctl y a d dr ess e d . M a gistr at e J u d g e Li n ds a y n ot e d t h at t h e c h ar a ct eri z ati o n w as n ot,
as S h e c kl es h a d ar g u e d, s ol el y b as e d o n t h e 2 0 0 5 c o n vi cti o n, b ut fr o m t h e i n v esti g ati o n i n v ol vi n g
t h e S al mir o n st as h h o us e i n 2 0 1 6 a n d fr o m t h e d et e cti v e’s c urr e nt i n v esti g ati o n. [ D E 7 8, at 4 0 9].
T hir d, S h e c kl es o bj e cts t o t h e fi n di n g of a s uffi ci e nt n e x us wit h S h e c kl es ’s r esi d e n c e b as e d
o n a n ass erti o n t h at it is f air t o i nf er t h at “ dr u g tr affi c k ers us e t h eir h o m es t o st or e dr u gs. ” [ D E 7 9,
at 4 2 0; D E 7 8, at 4 0 9]. S h e c kl es st at es t h at “ ‘[t]o i nf er p er missi bl y t h at a dr u g -d e al er’s h o m e m a y
c o nt ai n c o ntr a b a n d, t h e w arr a nt a p pli c ati o n m ust c o n n e ct t h e dr u g-d e al i n g a cti vit y a n d t h e
r esi d e n c e.’” U nit e d St at es v. M c C o y , 9 0 5 F. 3 d 4 0 9, 4 1 7 ( 6t h Cir. 2 0 1 8). I n t his c as e, S h e c kl es

6

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 7 of 1 1 P a g eI D #: 4 3 0

ass erts t h at t h e affi a nt “ str u n g t o g et h er i nf er e n c es u p o n i nf er e n c es t o j ustif y a n i n v asi o n of Mr.
S h e c kl es’ r esi d e n c e. ” [ D E 79, at 4 2 0].
Pr o b a bl e c a us e e xists i n t his c as e b e c a us e of t h e c o nti n u al a n d o n g oi n g o p er ati o n. “ W h e n
a w arr a nt a p pli c ati o n pr es e nts r eli a bl e e vi d e n c e t h at a dr u g -tr affi c ki n g o p er ati o n is o n g oi n g, ‘t h e
l a c k of a dir e ct k n o w n li n k b et w e e n t h e cri mi n al a cti vit y a n d [ d e aler’s] r esi d e n c e, b e c o m es
mi ni m al.’ ” U nit e d St at es v. M c C o y, 9 0 5 F. 3 d 4 0 9, 4 1 7 -1 8 ( 6t h Cir. 2 0 1 8) ( citi n g U nit e d St at es v.
N e wt o n, 3 8 9 F. 3 d 6 3 1 , 6 3 5-3 6 ( 6t h Cir. 2 0 0 4)); s e e U nit e d St at es v. Gr e e n e, 2 5 0 F. 3 d 4 7 1, 4 8 1
( 6t h Cir. 2 0 0 1). I n U nit e d St at es v. J e n ki ns, a s uffi ci e nt n e x us b et w e e n dr u g -r el at e d a cti vit y a n d
t h e d ef e n d a nt’s r esi d e n c e w as f or m e d b e c a us e G P S p h o n e pi n g d at a li n k e d d ef e n d a nt’s c ell p h o n e
t o t h e r esi d e n c e a n d a c ar, s e e n dri v e n b y t h e d ef e n d a nt aft er s e v er al c o ntr oll e d b u ys, w as r e gist er e d
at t h e s a m e a d dr ess. 1 7 4 3 F. A p p ’x 6 3 6, 6 4 2 -4 4 ( 6t h Cir. 2 0 1 8). U p o n r e vi e w b y t h e Si xt h Cir c uit,
a n d as n ot e d b y t h e distri ct c o urt, t h e co urt c o n cl u d e d t h at t h e p h o n e a n d t h e G P S d at a o bt ai n e d
fr o m t h e p h o n e c o n n e ct e d it a n d t h e dr u g a cti vit y t o t h e d ef e n d a nt’s r esi d e n c e. I d. T h e c o urt als o
c o n n e ct e d t h e c ar H o w ell w as s p ott e d i n aft er s e v er al c o ntr oll e d b u ys t o t h e s a m e a d dr ess. I d.
Si mil arl y, i n t his c as e, a n u n d er c o v er a g e nt pr o vi d e d i nf or m ati o n a b o ut Ri v as -L o p e z’s L o uis vill e
o p er ati o n a n d t h e c ell p h o n e n u m b er of his L o uis vill e distri b ut or. T his i nf or m ati o n al o n g wit h t h e
p h o n e pi n gs fr o m t h at n u m b er est a blis h e d a c o nti n u al a n d o n g oi n g o p er ati o n.
I n J u n e of 2 0 1 7, D E A a g e nts i n L as Cr u c es , M e xi c o pr o vi d e d i nf or m ati o n t o t h e L o uis vill e
D E A offi c e t h at a n u n d er c o v er o p er ati o n r e v e al e d Fr e d d y Ri v as w a nt e d t o c o nti n u e s e n di n g dr u gs
1

C o ntr oll e d b u ys w er e st a g e d usi n g a c o nfi d e nti al i nf or m a nt fr o m a n i n di vi d u al k n o w n as “ G h ost, ” l at er
i d e ntifi e d as o n e of t h e d ef e n d a nts, H o w ell. U nit e d St at es v. J e n ki ns, 7 4 3 F. A p p ’x 6 3 6, 6 3 8 ( 6t h Cir.
2 0 1 8). A G P S p h o n e pi n g s e ar c h w arr a nt w as e x e c ut e d aft er t h e first c o ntr oll e d b u y. I d. T h e p h o n e w as
fr e q u e ntl y l o c at e d o n D ori Dri v e d uri n g t h e d a y a n d o v er ni g ht. I d. A d diti o n all y, t h e s a m e bl a c k C hr ysl er
w as s e e n dri v e n b y H o w ell aft er s o m e of t h e b u ys. I d. T his c ar w as als o r e gist er e d t o t h e s a m e a d dr ess o n
D ori Dri v e. I d. A s e ar c h w arr a nt w as e x e c ut e d o n t h e D ori Dri v e a d dr ess a n d h er oi n, c as h, a n d fir e ar ms
w er e a m o n g t h e it e ms f o u n d. I d.
7

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 8 of 1 1 P a g eI D #: 4 3 1

t o L o uis vill e a n d w as pl a n ni n g a s hi p m e nt of t e n kil o gr a ms of c o c ai n e. [ D E 5 6, at 1 9 2 ]. T h e y
pr o vi d e d a p h o n e n u m b er of t h e p ers o n t h e y b eli e v e d w o ul d r e c ei v e t h e c o c ai n e i n L o uis vill e. I d.
M e m b ers of t h e L o uis vill e D E A offi c e a n d M etr o N ar c oti cs o bt ai n e d a p e n r e gist er or " pi n g "
or d er f or t h e p h o n e i n e arl y J ul y a n d us e d it t o c o n n e ct t h e p h o n e t o t h e T err a c e Cr e e k A p art m e nts,
w h er e S h e c kl es li v e d. I d. I n v esti g at ors c o n d u ct e d s ur v eill a n c e at t h e T err a c e Cr e e k A p art m e nts
a n d f o u n d a w hit e F or d E x p e diti o n r e nt e d b y S h e c kl es. [ D E 5 6, at 1 9 2 -9 4 ]. T h e c ell p h o n e pi n g
als o l e d i n v esti g at ors t o a n ot h er a p art m e nt c o m pl e x, t h e Cr es c e nt C e ntr e A p art m e nts l o c at e d at
6 4 4 S o ut h 3r d Str e et i n L o uis vill e, K e nt u c k y, w h er e t h e y als o o bs er v e d t h e w hit e E x p e diti o n
r e nt e d b y S h e c kl es. I d. Als o i n e arl y J ul y, Cr es c e nt C e ntr e m a n a g e m e nt o bt ai n e d a n a n o n y m o us
dr u g tr aff i c ki n g c o m pl ai nt r e g ar di n g A p art m e nt 2 3 4. [ D E 1, at 3]. S h e c kl es’s r e nt e d c ar h a d b e e n
p ar k e d i n t h e assi g n e d s p ot b el o n gi n g t o A p art m e nt 2 3 4. I d. A d diti o n all y, d uri n g t h e offi c er’s
i n v esti g ati o n h e als o i d e ntifi e d t h e s m ell of m arij u a n a e m a n ati n g fr o m A p art m e nt 2 3 4. [ D E 5 9,
at 2 8 0] . B as e d o n t h es e f a cts, as w ell as S h e c kl es ’s pri or c o n vi cti o n f or dr u g tr affi c ki n g a n d his
r el ati o n t o t h e 2 0 1 6 i n v esti g ati o n of t h e S al mir o n st as h h o us e, t h er e w as a s uffi ci e nt n e x us
b et w e e n t h e dr u g r el at e d a cti vit y a n d S h e c kl es ’s r esi d e n c e.
D.

O bj e cti o ns T o R e as o n a bl e S us pi ci o n F o r I n v esti g ati v e St o p.
S h e c kl es o bj e cts t o t h e M a gistr at e J u d g e’s c o n cl usi o n t h at t h e offi c ers w er e j ustifi e d i n

i niti ati n g t h e i n v esti g ati v e st o p. [ D E 7 9, at 4 2 0; D E 7 8, at 4 1 0-1 2]. S h e c kl es st at es t h at “[ n] o
cri mi n al a cti vit y h a d b e e n o bs er v e d; n o c o ntr oll e d b u ys h a d b e e n c o n d u ct e d. I nst e a d, t h er e w er e
s us pi ci o ns a n d h u n c h es t h at w er e n ot s uffi ci e nt t o w arr a nt a p ers o n of r e as o n a bl e c a us ati o n t o
b eli e v e t h at t h e s ei z ur e of Mr. S h e c kl es w as a r e as o n a bl e a cti o n t o t a k e at t h at ti m e. ” [ D E 7 9, at
4 2 1]. T his is i d e nti c al t o t h e ar g u m e nt m a d e b y S h e c kl es i n his M oti o n t o S u p pr ess a n d his P ostH e ari n g Bri ef i n S u p p ort of S u p pr essi o n. [ D E 3 3, at 1 1 5 -1 6; D E 7 0, at 3 6 9 -7 1].

8

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 9 of 1 1 P a g eI D #: 4 3 2

As st at e d pr e vi o usl y, a n “ o bj e cti o n . . . t h at m er el y r eit er at es ar g u m e nts pr e vi o usl y
pr es e nt e d, d o es n ot a d e q u at el y i d e ntif y all e g e d err ors o n t h e p art of t h e m a gistr at e j u d g e. ” Alt y g ,
2 0 1 7 W L 4 2 9 6 6 0 4, at * 1 .

M or e o v er, S h e c kl es’s p ur p ort e d o bj e cti o n is n ot hi n g m or e t h a n a si m pl e

dis a gr e e m e nt wit h J u d g e Li n ds a y’s c o n c l usi o n o n t his iss u e. O c a m p o, 9 1 9 F. S u p p. 2 d at 9 1 0 . “ A n
‘o bj e cti o n ’ t h at d o es n ot hi n g m or e t h a n st at e a dis a gr e e m e nt wit h a m a gistr at e's s u g g est e d
r es ol uti o n, or si m pl y s u m m ari z es w h at h as b e e n pr es e nt e d b ef or e, is n ot a n ‘ o bj e cti o n ’ as t h at t er m
is us e d i n t his c o nt e xt. ” I d. at 7 4 7. C o ns e q u e ntl y, t h e fili n g of v a g u e, g e n e r al, or c o n cl us or y
o bj e cti o ns d o es n ot m e et t h e r e q uir e m e nt of s p e cifi c o bj e cti o ns a n d is t a nt a m o u nt t o a c o m pl et e
f ail ur e t o o bj e ct. I d. at 7 4 7 – 4 8; S e e als o, Mill er , 5 0 F. 3 d at 3 8 0 ; C ol e , 7 F. A p p' x at 3 5 6 .
H o w e v er, e v e n if t h e C o urt w er e t o c o n si d er t h e m erits of t his o bj e cti o n , t h e R & R is w ellr e as o n e d o n t his iss u e. A n i n v esti g ati v e st o p m ust o nl y b e s u p p ort e d b y r e as o n a bl e s us pi ci o n.
T err y v. O hi o, 3 9 2 U. S. 1, 3 0 ( 1 9 6 8). R e as o n a bl e s us pi ci o n r e q uir es m or e t h a n a “ h u n c h, ” b ut l ess
t h a n pr o b a bl e c a us e. U nit e d St at es v. S o k ol o w, 4 9 0 U. S. 1, 7 ( 1 9 8 9). “ A s us pi ci o us stri n g of
s e p ar at el y-i n n o c e nt a cts c a n b e e n o u g h t o j ustif y a st o p. ” [ D E 7 8, at 4 1 1]; U nit e d St at es v. Ar viz u,
5 3 4 U. S. 2 6 6, 2 7 4 -7 5 ( 2 0 0 2).
H er e, t h e p oli c e h a d m or e t h a n r e as o n a bl e s us pi ci o n t o s u p p ort t h e st o p, t h e y h a d pr o b a bl e
c a us e. T h e st o p w as b as e d o n m or e t h a n “s us pi ci o n a n d h u n c h es, ” b ut a stri n g of s us pi ci o us a cts.
T h es e s us pi ci o us a cts i n cl u d e: S h e c kl es ’s pri or dr u g tr affi c ki n g c o n vi cti o n [ D E 5 6, at 2 4 6],
o bs er v ati o n of S h e c kl es at t h e S al mir o n st as h h o us e i n 2 0 1 6 [ D E 5 6, at 1 8 7], p h o n e pi n g d at a
pl a ci n g S h e c kl es c ell p h o n e at T err a c e Cr e e k a n d t h e Cr es c e nt C e ntr e [ D E 5 6, at 1 9 2 -9 4; D E 5 9,
at 2 8 1], o bs er v ati o n of S h e c kl es r e nt al v e hi c l e at Cr es c e nt C e ntr e i n t h e s p ot assi g n e d t o A p art m e nt
2 3 4 [ D E 5 6, at 1 9 2 -9 4; D E 5 9, at 2 8 1], a n a n o n y m o us e m pl o y e e ’s c o m pl ai nt a b o ut dr u g a cti vit y
i n A p art m e nt 2 3 4 at Cr es c e nt C e ntr e [ D E 5 9, at 2 7 8-8 0], a n d a d et e cti v e’s r e p ort of t h e s m ell of

9

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 1 0 of 1 1 P a g eI D #: 4 3 3

m arij u a n a o utsi d e of A p art m e nt 2 3 4. [ D E 5 9, at 2 8 0]. B as e d o n t his i nf or m ati o n, t h e p oli c e h a d at
l e ast r e as o n a bl e s us pi ci o n t o s u p p ort t h e i n v esti g ati v e st o p.
E.

O bj e cti o ns T o C r e di bilit y of Wit n ess T esti m o n y .
S h e c kl es p ur p orts t o o bj e ct t o t h e cr e di bilit y of wit n ess t esti m o n y o n t w o gr o u n ds. First,

S h e c kl es o bj e cts t o t h e M a gistr at e’s a c c e pt a n c e of t h e “ offi c er’s cl ai ms t h at t h er e w as a s m ell of
m arij u a n a e m a n ati n g fr o m his v e hi cl e. ” [ D E 7 9, at 4 2 1]. S h e c kl es all e g es t h at “[t] h er e ar e n o
c o nt e m p or a n e o us r e c or ds t o t h at eff e ct … ” I d. S e c o n d, S h e c kl es o bj e cts t o t h e c o n cl usi o n t h at t h e
offi c ers’ t esti m o n y w as m or e cr e di bl e t h a n Ms. Fl or es ’ t esti m o n y. [ D E 7 9, at 4 2 1; D E 7 8, at 4 1 5].
S h e c kl es all e g es t h at “[s] u c h a n ass erti o n ess e nti all y m e a ns t h at wit n ess es f or t h e d ef e ns e c a n n ot
b e c o nsi d er e d cr e di bl e … ” [ D E 7 9, at 4 2 1]. H o w e v er, “ [t]h e M a gistr at e J u d g e, as t h e f a ct -fi n d er
w h o s e es a n d h e ars t h e wit n ess es, is u ni q u el y sit u at e d t o ass ess t h e cr e di bilit y of t h e wit n ess es.
T h us, t his C o urt m ust ‘ a c c or d[] gr e at d ef er e n c e t o s u c h cr e di bilit y d et er mi n ati o ns.’ ” U n it e d St at es
v. C o n w a y, N o. 1 7 -4 3 -D L B -CJ S, 2 0 1 8 W L 3 4 3 5 3 5 3, at * 5 ( E. D. K y. J ul y 1 7, 2 0 1 8); U nit e d St at e s
v. Cr a wf or d, N o. 1 7 -3 4 -D L B -CJ S, 2 0 1 8 3 3 8 8 1 3 5, at * 1 0 ( E. D. K y. J ul y 1 2, 2 0 1 8).
At t h e S u p pr essi o n H e ari n g, Offi c er S c h ar d ei n t estifi e d t h at h e s m ell e d m arij u a n a d uri n g
t h e i n v esti g ati v e st o p. [ D E 5 6, at 2 4 4-4 5, 2 4 9, 2 5 5 -5 6]. M a gi str at e J u d g e Li n ds a y w as a bl e t o
ass ess t h e cr e di bilit y of Offi c er S c h ar d ei n’s t esti m o n y a n d his d e cisi o n t o a c c e pt t h e offi c er’s cl ai m
s h o ul d b e gi v e n d ef er e n c e d es pit e t h e l a c k of a c o nt e m p or a n e o us r e c or d.
F urt h er i n ass essi n g t h e cr e di bilit y of all wit n ess’ t esti m o n y, J u d g e Li n ds a y f o u n d t h e
offi c er’s t esti m o n y m or e cr e di bl e t h at Ms. Fl or es’s f or t w o r e as o ns. [ D E 7 8, at 4 1 5]. First, t h e
offi c ers ’ t esti m o n y w as c orr o b or at e d b y e a c h ot h er. I d. T h e r es ults of t h e s e ar c h als o c orr o b or at e d
t h e offi c ers’ t esti m o n y as t h e y f o u n d e x a ctl y w h at

Ms. Fl or es i n di c at e d t h e y w o ul d fi n d. I d.

S e c o n d, Ms. Fl or es ’s “i nt er est i n t h e o ut c o m e of t his c as e ar e s e v er e. ” I d. S h e is i n a r el ati o ns hi p

10

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 8 0

Fil e d 0 1/ 2 5/ 1 9

P a g e 1 1 of 1 1 P a g eI D #: 4 3 4

wit h S h e c kl es, h as a c hil d wit h hi m, a n d r eli es u p o n hi m as a s o ur c e of fi n a n ci al s u p p ort. I d. F or
t h es e r e as o ns, M a gistr at e

J u d g e Li n ds a y d et er mi n ati o n t h at t h e offi c er’s t esti m o n y w as m or e

cr e di bl e s h o ul d b e a c c or d e d d ef er e n c e.
C O N C L U SI O N
A c c or di n gl y, f or t h e r e as o ns st at e d h er ei n, I T I S O R D E R E D as f oll o ws:
( 1)

T h e R e p o rt a n d R e c o m m e n d ati o n of t h e U nit e d St at es M a gistr at e J u d g e, [ D E 7 8 ],

is a c c e pt e d wit h o ut m o difi c ati o n as t h e fi n di n gs of f a ct a n d c o n cl usi o ns of l a w of t his C o urt;
( 2)

D ef e n d a nt’s O bj e cti o ns, [ D E 7 9 ], ar e o v err ul e d as s et f ort h h er ei n;

( 3)

D ef e n d a nt’s M oti o n s t o S u p pr ess, [ D E 3 3, D E 6 8 ], ar e D E NI E D ; a n d

( 4)

T his m att er is s c h e d ul e d f or a St at us C o nf e r e n c e o n J a n u a r y 3 1, 2 0 1 9 at 2: 0 0

p . m. b ef or e t h e H o n or a bl e R e b e c c a Gr a d y J e n ni n gs at t h e G e n e S n y d er U nit e d St at es C o urt h o us e.

5, 22019
019
January
J a n u ar y 225,

11

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 of 1 5 P a g eI D #: 4 0 4

U NI T E D S T A T E S DI S T RI C T C O U R T
W E S T E R N DI S T RI C T O F K E N T U C K Y
L O UI S VI L L E DI VI SI O N
C RI MI N A L A C TI O N N O. 3: 1 7 -C R -1 0 4 -R G J
U NI T E D S T A T E S O F A M E RI C A,

Pl ai ntiff,

v.
D W Y A N E S H E C K L E S,

D ef e n d a nt .
R e p o rt & R e c o m m e n d ati o n

D ef e n d a nt D w a y n e S h e c kl es h as fil e d t w o m oti o ns w hi c h t o g et h er as k t h e C o urt t o
s u p pr ess t h e e vi d e n c e o bt ai n e d i n fi v e disti n ct s e ar c h es.1 ( D Ns 3 3, 6 8.) B ot h m oti o ns ar e n o w
ri p e f or r e vi e w.
S h e c kl es “ h as t h e b ur d e n of est a blis hi n g t h at his o w n F o urt h A m e n d m e nt ri g hts w er e
vi ol at e d b y t h e c h all e n g e d s e ar c h or s ei z ur e. ” U nit e d St at es v. Ri c h ar ds , 6 5 9 F. 3 d 5 2 7, 5 3 6 ( 6t h
Cir. 2 0 1 1) ( q u oti n g R a k as v. Illi n ois , 4 3 9 U. S. 1 2 8, 1 3 0 n. 1 ( 1 9 7 8)). F or t h e f oll o wi n g r e as o ns,
t h e u n d ersi g n e d M a gistr at e J u d g e
c h all e n g e d s e ar c h es .

fi n ds t h at h e h as n ot m et t h at b ur d e n r e g ar din g a n y of t h e

A c c or di n gl y, t h e u n d ersi g n e d r e c o m m e n ds t h at t h e Distri ct J u d g e D E N Y

b ot h m oti o ns i n f ull.
I. T H E T A R G E T P H O N E
S h e c kl es first c h all e n g es l a w e nf or c e m e nt’s w arr a nt-s u p p ort e d tr a c ki n g of a c ell p h o n e ’s
l o c ati o n d at a. I n its a n al ysis, t his C o urt m a y c o nsi d er o nl y t h e st at e m e nts c o nt ai n e d i n t h e
w arr a nt’s s u p p orti n g affi d a vit. U nit e d St at es v. W e a v er , 9 9 F. 3 d 1 3 7 2, 1 3 7 7 ( 6t h Cir. 1 9 9 6).
I n J ul y 2 0 1 7, a L o uis vill e

M etr o P oli c e D e p art m e nt d et e cti v e r e q u est e d a “tr a c ki n g

w arr a nt ” f or a c ell p h o n e b el o n gi n g t o “ a n u n k n o w n dr u g tr affi c k er” fr o m t h e J effers o n Cir c uit

S h e c kl es’ s m oti o n a n d pr o p os e d or d er h a v e b e e n d o c k et e d as D N 6 8. A s e c o n d c o p y of t h e m oti o n a n d
a n e x hi bit h a v e b e e n d o c k et e d as D N 6 9.
1

1

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 2 of 1 5 P a g eI D #: 4 0 5

C o urt . ( D N 3 3-2 , P a g eI D # 1 2 6.) H e p osit e d t h at t h e t ar g et p h o n e’s l o c ati o n d at a w o ul d e n a bl e
l a w e nf or c e m e nt t o s ur v eil t h e p h o n e’s o w n er a n d “i d e ntif y l o c ati o ns w h er e e vi d e n c e of cri mi n al
a cti vit y m a y b e l o c at e d. ” ( P a g eI D # 1 2 9.)
A c c or di n g t o t h e d et e cti v e’s affi d a vit , Alfr e d o Ri v as -L o p e z, a c o n vi ct e d dr u g distri b ut or ,
h a d t ol d a n u n d er c o v er a g e nt t h at h e h a d c o nt a ct e d a dr u g r e ci pi e nt i n L o uis vill e. Ri v as -L o p e z
i nt e n d e d t o us e t h at u n d er c o v er a g e nt, w h o w as p osi n g as a dr u g tr a ns p ort er, t o d eli v er 1 0
kil o g r a ms of c o c ai n e t o L o uis vill e. “ T oll a n al ysis ” of Ri v as -L o p e z ’s p h o n e r e v e al e d t h e dr u g
r e ci pi e nt’s p h o n e n u m b er. (P a g eI D # 1 2 8 .)

T h at t ar g et p h o n e w as a pr e p ai d a n d a n o n y m o us

d e vi c e, a n d it h a d m a d e c alls wit h ot h er p h o n es t hr o u g h o ut t h e S o ut h w est.

A c c or di n g t o t h e

d et e cti v e’s tr ai ni n g a n d e x p eri e n c e, t h es e f a cts i n di c at e d dr u g a cti vit y.

( P a g eI D # 1 2 9.)

In v esti g at ors b eli e v e d ( err o n e o usl y, as it w o ul d t ur n o ut) t h at B yr o n M a y es, a dr u g d e al er w h o h a d
pr e vi o usl y b e e n c o n vi ct e d al o n gsi d e Ri v as -L o p e z, w as t h e t ar g et p h o n e’s o w n er. ( P a g eI D # 1 2 7,
1 2 9 .)
T h e J eff ers o n Cir c uit J u d g e si g n e d t h e w arr a nt p er mitti n g t h e L o uis vill e M etr o d et e cti v es
t o c o nti n u all y a c c ess t h e p h o n e’s l o c ati o n d at a at “ a n y ti me of t h e d a y or ni g ht ” f or 6 0 c o ns e c uti v e
d a ys. ( P a g eI D # 1 3 2.) T h e J u d g e als o e x pr essl y e x cl u d e d “t h e c o nt e nts of a n y c o m m u ni c ati o ns ”
fr o m t h e w arr a nt. ( P a g eI D # 1 3 2– 3 3.)
S h e c kl es ar g u es t h at l a w e nf or c e m e nt ’s tr a c ki n g of t h e c ell p h o n e “ w as a n i ntr usi v e s e ar c h
. . . n ot s u p p ort e d b y pr o b a bl e c a us e. ”

H e cl ai ms t h at t h e d et e cti v e’s s u p p orti n g affi d a vit w as

“ e ntir el y c o n cl us or y ” a n d o b j e cts t o l a w e nf or c e m e nt’s tr a c ki n g of a n u ni d e ntifi e d i n di vi d u al’s
c ell p h o n e. ( D N 3 3, P a g eI D # 1 2 1.) T h e U nit e d St at es ar g u es t h at “ cr e di bl e i nf or m ati o n ” i n t h e
s u p p orti n g affi d a vit est a blis h es pr o b a bl e c a us e; t h at t h e pr e p ai d p h o n e’s a n o n y mit y b olst er e d dr u g

2

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 3 of 1 5 P a g eI D #: 4 0 6

tr affi c ki n g s us pi ci o ns, if a n yt hi n g; a n d t h at t h e ori gi n al b eli ef t h at M a y es o w n e d t h e p h o n e is
i n c o ns e q u e nti al. ( D N 7 3, P a g eI D # 3 8 6.)
A s e ar c h or s ei z ur e w hi c h is r e as o n a bl e is als o c o nstit uti o n al, a n d “ a j u di ci al w arr a nt iss u e d
u p o n pr o b a bl e c a us e ” is t h e b est w a y t o d e m o nstr at e r e as o n a bl e n ess. 2 V er n o ni a S c h. Dist. 4 7 J v.
A ct o n , 5 1 5 U. S. 6 4 6, 6 5 2 ( 1 9 9 5); S ki n n er v. R y. L a b or E x e c uti v es’ Ass’ n , 4 8 9 U. S. 6 0 2, 6 1 9
( 1 9 8 9). A w arr a nt’s s u p p orti n g affi d a vit est a blis h es pr o b a bl e c a us e if it c o nt ains, o n its f a c e, “f a cts
t h at i n di c at e a f air pr o b a bilit y t h at e vi d e n c e of a cri m e will b e l o c at e d o n t h e pr e mis es of t h e
pr o p os e d s e ar c h. ” U nit e d St at es v. Fr azi er , 4 2 3 F. 3 d 5 2 6, 5 3 1 ( 6t h Cir. 2 0 0 5) (i nt er n al q u ot ati o ns
o mitt e d). T h os e f a cts m ust b e p art i c ul ari z e d e n o u g h t o i nf or m t h e r e vi e wi n g m a gistr at e’s pr o b a bl e
c a us e d et er mi n ati o n; “ b oil er pl at e r e cit ati o ns d esi g n e d t o m e et all l a w e nf or c e m e nt n e e ds ” ar e
i n a d e q u at e. Illi n ois v. G at es, 4 6 2 U. S. 2 1 3, 2 3 9 ( 1 9 8 3); W e a v er , 9 9 F. 3 d at 1 3 7 8. Li k e wis e, m er e
“s us pi ci o ns, b eli efs or c o n cl usi o ns ” ar e i ns uffi ci e nt. W e a v er , 9 9 F. 3 d at 1 3 7 8.
W h e n a d ef e n d a nt c h all e n g es t h e c o nstit uti o n alit y of a w arr a nt -s u p p ort e d s e ar c h, t h e c o urt
m ust “si m pl y . . . e ns ur e t h at t h e m a gistr at e h a d a s u bst a nti al b asis f or c o n cl u di n g t h at pr o b a bl e
c a us e e xist e d. ” U nit e d St at es v. L a u g ht o n , 4 0 9 F. 3 d 7 4 4, 7 4 7 ( 6t h Cir. 2 0 0 5). “[ G]r e at d ef er e n c e ”
s h o ul d b e a c c or d e d t o t h e m a gist r at e’s ori gi n al d et er mi n ati o n. U nit e d St at es v. L e o n , 4 6 8 U. S.
8 9 7, 9 1 4 ( 1 9 8 4).
T h e u n d ersi g n e d fi n ds t h at t h e J eff e rs o n Cir c uit J u d g e h a d a s u bst a nti al b asis f or
c o n cl u di n g t h at pr o b a bl e c a us e e xist e d. T h e d et e cti v e’s affi d a vit r el a y e d pr e cis e i nf or m ati o n fr o m
a n u n d er c o v er a g e nt: t h at Ri v as-L o p e z h a d c o nt a ct e d a dr u g r e ci pi e nt i n L o uis v ill e b y c alli n g t h e
t ar g et p h o n e. It w as r e as o n a bl e t o s us p e ct t h at t h e t ar g et p h o n e, b e c a us e it w as pr e p ai d a n d o w n e d

G o v er n m e nt a c q uisiti o n of c ell p h o n e l o c ati o n d at a is “ a s e ar c h wit hi n t h e m e a ni n g of t h e F o urt h
A m e n d m e nt, ” s u bj e ct t o t h e g e n er al w arr a nt r e q uir e m e nt. C ar p e nt er v. U nit e d St at es , 1 3 8 S. Ct. 2 2 0 6,
2 2 2 0 – 2 1 ( 2 0 1 8).
2

3

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

by

an

a n o n y m o us

i n v esti g at ors

D o c u m e nt 7 8

p ers o n,

w as

b ei n g

Fil e d 1 1/ 2 0/ 1 8

us e d f or

dr u g

P a g e 4 of 1 5 P a g eI D #: 4 0 7

a cti vit y.

mist a k e nl y b eli e v e d t h at t h e p h o n e b el o n g e d t o

And

e ve n t h o u g h

M a y es, t h er e

w as a f air

pr o b a bilit y t h at tr a c ki n g t h e p h o n e w o ul d l e a d t h e m t o a dr u g tr affi c k er a n d his st as h l o c ati o n.
A c c or di n gl y, t h e tr a c ki n g a ut h ori z e d b y t h e w arr a nt w as c o nstit uti o n al.
II. T H E A P A R T M E N T S E A R C H E S
S h e c kl es n e x t c h all e n g e s t w o w arr a nt-s u p p ort e d a p art m e nt s ea r c hes . O n c e a g a i n, o nl y t h e
st at e m e nts c o nt ai n e d i n t h e s u p p orti n g affi d a vits m a y b e c o nsi d er e d. W e a v er , 9 9 F. 3 d at 1 3 7 7.
O n e w e e k aft er a p pl yi n g f or t h e tra c ki n g w arr a nt, t h e s a m e d et e cti v e su b mitt e d s e ar c h
w arr a nt affi d a vits f or t w o a p art m e nts: a s us p e ct e d st as h h o us e at t h e Cr es c e nt C e ntr e ( D N 3 3- 3)
a n d S h e c kl es’s s us p e ct e d r esi d e n c e o n T err a c e Cr e e k Dri v e ( DN 3 3- 4). T h e s a m e s u p p orti n g
affi d a vit w as att a c h e d t o b ot h w arr a nts. It c o nt ai n e d g e n er all y t h e s a m e b a c k gr o u n d i nf or m ati o n
as t h e tr a c ki n g w arr a nt’s affi d a vit. H o w e v er, at t his p oi nt i n t h e i n v esti g ati o n, t h e d et e cti v e
s us p e ct e d t h at S h e c kl es r at h er t h a n M a y es o w n e d t h e t ar g et p h o n e. T h e affi d a vit m e nti o n e d t h at
offi c ers h a d s p ott e d a r e nt al v e hi cl e l e as e d t o S h e c kl es at a n u nr el at e d st as h h o us e o p er at e d b y
Gi o v a n ni S al mir o n i n 2 0 1 6. ( P a g eI D # 1 3 8 – 3 9.)
T h e affi d a vit als o c o nt ai n e d n e w i n v esti g ati v e d et ails a b o ut b ot h a p art m e nts. T h e d a y aft er
t h e tr a c ki n g w arr a nt w as si g n ed, t h e t ar g et p h o n e “ pi n g e d ” at t h e T err a c e Cr e e k a p art m e nt
c o m pl e x. W h e n offi c ers visit e d t h e c o m pl e x, t h e y o bs er v e d a w hit e E x p e diti o n wit h C alif or ni a
t a gs. It t ur n e d o ut t o b e a diff er e nt r e nt al v e hi cl e l e as e d t o S h e c kl es, w h o als o h a d a r egist er e d
a d dr ess at t h e c o m pl e x. ( P a g eI D # 1 3 8.)
A f ew d a y s l at er, offi c e rs l e ar n ed t h at t h e c o c a i n e d e a l a nti ci p at e d i n t h e tr a c ki n g w arr a nt’s
aff i d a vit h a d f all en t hr o u gh.

B ut t h e s am e

u n d er c o v e r a g e nt r e p ort ed t h at t h e L o uis vill e

4

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 5 of 1 5 P a g eI D #: 4 0 8

distri b ut or — n o w b eli e v e d t o b e S h e c kl es, n ot M a y es — h a d i n v est e d his m o n e y i n ot h er dr u gs.
( P a g eI D # 1 3 9.)
S o o n t h er e aft er, t h e t ar g et p h o n e “ pi n g e d ” at t h e Cr es c e nt C e ntr e a p art m e nts.

O ffi c ers

i n v esti g at e d a n d n oti c e d t h e w hit e E x p e diti o n i nsi d e t he b uil di n g’s s e c ur e l ot. W h e n o n e d et e cti v e
visit e d t h e b uil di n g’s m a n a g e m e nt offi c e, a n e m pl o y e e r el a y e d a n a n o n y m o us c o m pl ai nt a b o ut
dr u g d e ali n g fr o m A p art m e nt 2 3 4 .

A n ot h er e m pl o y e e h a d r e p ort e dl y s m ell e d m arij u a n a i nsi d e

t h at a p art m e nt w hil e r e pl a ci n g a n air fi lt er.

W h e n th e i n v esti g ati n g d et e cti v e w al k e d p ast t h e

a p art m e nt , h e als o s m ell e d m arij u a n a. S ur v eill a n c e f o ot a g e s h o w e d a bl a c k m al e w al ki n g i n a n d
o ut of t h e Cr es c e nt C e ntr e wit h m a n y b a gs. ( P a g eI D # 1 3 9.)
T h e affi d a vit c o n cl u d e d t h at S h e c kl es w as r e c ei vi n g l ar g e q u a ntiti es of dr u gs fr o m Ri v as L o p e z, o p er ati n g o ut of t h e Cr es c e nt C e ntr e a p art m e nt, a n d li vi n g at t h e T err a c e Cr e e k a p art m e nt.
( P a g eI D # 1 3 9.) A J eff ers o n C o u nt y J u d g e f o u n d pr o b a bl e c a us e a n d si g n e d b ot h w arr a nt
a p pli c ati o ns. ( P ag eI D # 1 3 6 – 3 7, 1 4 1 – 4 2.) T h e w arr a nts p er mitt e d l a w e nf or c e m e nt t o s e ar c h b ot h
a p art m e nts, t h e w hit e E x p e diti o n, a n d S h e c kl es’ s p ers o n. ( P a g eI D # 1 3 5.)
S h e c kl es ar g u es t h at t h e d et e cti v e’s affi d a vit w as “ e ntir el y c o n cl us or y ” a n d f ail e d t o
est a blis h t h at Sh e c kl es w as e v e n utili zi n g t h e t w o a p art m e nts . ( D N 3 3, P a g eI D # 1 1 7.) H e als o
ass erts t h at “ a bs ol ut el y n o all e g ati o ns ” c o n n e ct t h e T err a c e Cr e e k a p art m e nt t o a n y dr u g a cti vit y.
( P a g eI D # 1 1 9.) T h e U nit e d St at es ar g u es t h at t h e st at e m e nt s uffi ci e ntl y lin k e d S h e c kl es t o Ri v as L o p e z, S al mir o n’s st as h h o us e, a n d t h e t ar g et p h o n e. ( D N 7 3, P a g eI D # 3 8 7.)
T h e u n d ersi g n e d fi n ds t h at t h e J eff ers o n Cir c uit J u d g e h a d a s u bst a nti al b asis f or
c o n cl u di n g t h at pr o b a bl e c a us e e xist e d. I n t hr e e w a ys, th e d et e cti v e’s st at e m e nt pr es e nt e d e n o u g h
e vi d e n c e f or t h e r e vi e wi n g j u d g e t o i n d e p e n d e ntl y d et er mi n e t h at t h e t ar g et p h o n e b el o n g e d t o a
dr u g tr affi c k er w h o w as a c c essi n g b ot h a p art m e nts.

5

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 6 of 1 5 P a g eI D #: 4 0 9

First, t h e offi c ers’ i n v esti g ati v e fi n di n gs s u p p ort e d t h e fi n di n g of pr o b a bl e c a us e. Offi c ers
s a w S h e c kl es’ s v e hi cl e o utsi d e b ot h a p art m e nts, at t h e s a m e ti m e as t h e t ar g et p h o n e w as pi n gi n g
at e a c h l o c ati o n. T h e y als o w at c h e d s e c urit y f o ot a g e of a m a n w h os e a p p e ar a n c e w as c o nsist e nt
wit h S h e c kl es’ s e nt er a n d l e a v e t h e Cr es c e nt C e ntr e wit h m a n y b a gs.

T h es e o bs er v ati o ns

est a blis h e d “ a f air pr o b a bilit y ” t h at t h e a p art m e nts c o nt ai n e d e vi d e n c e. S e e Fr azi er , 4 2 3 F. 3 d at
5 3 1.
S e c o n d, t h e d et e cti v e’s c h ar a ct eri z ati o n of S h e c kl es as a k n o w n n ar c oti cs tr affi c k er w as
r e as o n a bl e. T h at c h ar a ct eri z ati o n w as n ot, as S h e c kl es ar g u es, b as e d s ol el y o n his 2 0 0 5 tr affi c ki n g
c o n vi cti o n — offi c ers h a d als o s e e n S h e c kl es visit t h e S al mir o n st as h h o us e i n 2 0 1 6. A w e e k aft er
t h at s ur v eill a n c e, offi c ers e x e c ut e d a s e ar c h w arr a nt at t h at st as h h o us e a n d s ei z e d h er oi n a n d dr u g
m o n e y. ( P a g eI D # 1 3 8 – 3 9.)
Fi n all y, t h e d et e cti v e’s st at e m e nt est a blis h e d a s uffi ci e nt n e x us b et w e e n t h e T err a c e Cr e e k
a p art m e nt a n d t h e s us p e ct e d dr u g a cti vit y. T his cir c uit a n d ot h ers h a v e f airl y i nf err e d t h at “ dr u g
tr affi c k ers us e t h eir h o m es t o st or e dr u gs a n d ot h er wis e f urt h er t h eir dr u g tr affi c ki n g.” U nit e d
St at es v. Willi a ms , 5 4 4 F. 3 d 6 8 3, 6 8 7 ( 6t h Cir. 2 0 0 8). T h e t ar g et p h o n e pi n g e d at T err a c e Cr e e k,
a n d offi c ers r e as o n a bl y e x p e ct e d ot h er e vi d e n c e of dr u g tr affi c ki n g t o b e pr es e nt t h er e.
P arti c ul arl y i n li g ht of t h e d ef er e n c e o w e d t o t h e J eff ers o n C o u nt y Ju d g e’s ori gi n al pr o b a bl e c a us e
d et er mi n ati o n, S h e c kl es h as f ail e d t o est a blis h t h at t h e T err a c e Cr e e k s e ar c h vi ol at e d his
c o nstit uti o n al ri g hts .
III. T H E I N V E S TI G A TI V E S T O P
S h e c kl es n e xt c h all e n g es b ot h t h e i niti al b asis f or a n d t h e d ur ati o n of a J ul y 2 0 1 7
a ut o m o bil e st o p. T h e C o urt h e ar d t esti m o n y a b o ut t h e st o p fr o m s e v er al offi c ers d uri n g a t w o -d a y
e vi d e nti ar y h e ari n g. ( D Ns 5 6, 5 9.)

6

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 7 of 1 5 P a g eI D #: 4 1 0

I niti ati o n of t h e St o p
T h e st o p t o o k pl a c e i n t h e e arl y m or ni n g of J ul y 1 2, 2 0 1 7, s h ortl y aft er offi c ers s a w
S h e c kl es l e a v e t h e Cr es c e nt C e ntr e. ( P a g eI D # 2 4 4.) T h e t w o a p art m e nt s e ar c h w arr a nts dis c uss e d
a b o v e w er e si g n e d b y t h e j u d g e s h ortl y aft er offi c ers i niti at e d t h e st o p. ( P a g eI D # 2 5 3– 5 4. )
U ns ur prisi n gl y , t h e s u p p ort f or t h e w arr a nts a n d t h e j ustifi c ati o ns f or t h e st o p o v erl a p si g nifi c a ntl y .
T h e i nf or m ati o n k n o w n t o t h e offi c ers at t h e ti m e of t h e st o p c a n b e br o k e n i nt o fi v e k e y
p oi nts. First, S h e c kl es h a d a pri or dr u g tr affi c ki n g f el o n y c o n vi cti o n. ( D N 5 6, P a g eI D # 2 4 6.)
S e c o n d, S h e c kl es h a d b e e n s e e n at S al mir o n’s st as h h o us e i n 2 0 1 6. ( P a g eI D # 1 8 7.) T hir d, offi c ers
h a d tr a c k e d t h e t ar g et p h o n e t o a n d o bs er v e d S h e c kl es’s r e nt al v ehi cl e at b ot h T err a c e Cr e e k,
w h er e S h e c kl es h a d a r e gist er e d a d dr ess, a n d at t h e Cr es c e nt C e ntr e— t h o u g h t h e p h o n e a n d
v e hi cl e w er e n’t al w a ys t o g et h er. ( P a g eI D # 1 9 2 – 9 4, 2 8 1.) F o urt h, a n a n o n y m o us ti p p er a n d a n
e m pl o y e e h a d c o m pl ai n e d a b o ut dr u g a cti vit y i n A p art m e nt 2 3 4 at t h e Cr es c e nt C e ntr e. S h e c kl es’s
v e hi cl e h a d b e e n p ar k e d i n t h at a p art m e nt’s assi g n e d s p ot. ( P a g eI D # 2 7 8– 8 0.) A n d fift h, w hil e
w al ki n g t hr o u g h a h all w a y a c c o m p a ni e d b y Cr es c e nt C e ntr e st aff, a

d et e cti v e h a d als o s m ell e d

m arij u a n a o utsi d e A p art m e nt 2 3 4. ( P a g eI D # 2 8 0.)
S h ortl y aft er S h e c kl es l eft t h e Cr es c e nt C e ntr e t h at ni g ht, offi c ers bl o c k e d his r e nt e d
E x p e diti o n wit h a v a n a n d r e m o v e d hi m fr o m t h e v e hi cl e. ( P a g eI D # 2 5 1.)
S h e c kl es ar g u es t h at t h e offi c ers h a d n o arti c ul a bl e s us pi ci o n of cri mi n al a cti vit y. ( D N 3 3,
P a g eI D # 1 1 5 – 1 6; D N 7 0, P a g eI D # 3 7 0.) I n s u p p ort, h e p oi nts o ut t h at t h e offi c ers di d n’t s e e t h e
E x p e diti o n d o a n yt hi n g s us pi ci o us ot h er t h a n l e a v e t h e Cr es c e nt C e ntr e a n d t h at t h e y w er e a w ar e
t h at t h e a nti ci p at e d Ri v as- L o p e z c o c ai n e s hi p m e nt w as n’t c o mi n g aft er all. ( P a g eI D # 3 7 0.) T h e
U nit e d St at es ar g u es t h at t h e offi c ers h a d m or e t h a n a n arti c ul a bl e s us pi ci o n t o i niti at e t h e st o p

7

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 8 of 1 5 P a g eI D #: 4 1 1

b e c a us e t h e y h a d pr o b a bl e c a us e t o b eli e v e t h at S h e c kl es w as tr affi c ki n g dr u gs. ( D N 7 3, P a g eI D
# 3 8 8).
T h e p arti es a gr e e t h at t hi s w as a n i n v esti g ati v e st o p, n ot a r o uti n e tr affi c st o p.

3

( D N 7 0,

P a g eI D # 3 6 9 – 7 0; D N 7 0, P a g eI D # 3 8 8.) T h e F o urt h A m e n d m e nt’s “ pr ot e cti o ns e xt e n d t o bri ef
i n v esti g at or y st o ps of p ers o ns or v e hi cl es t h at f all s h ort of tr a diti o n al arr est. ” U nit e d St at es v.
Ar viz u , 5 3 4 U. S. 2 6 6, 2 7 3 ( 2 0 0 2); s e e als o T err y v. O hi o , 3 9 2 U. S. 1 ( 1 9 6 8). S u c h a st o p is
c o nstit uti o n al if it is “s u p p ort e d b y r e as o n a bl e s us pi ci o n t o b eli e v e t h at cri mi n al a cti vit y m a y b e
af o ot. ” Ar viz u , 53 4 U. S. at 2 7 3 (i nt er n al q u ot ati o ns o mitt e d). W h e n a d ef e n d a nt c h all e n g es t h e
c o nstit uti o n alit y of a n i n v esti g ati v e st o p, t h e c o urt m ust “ m ust l o o k at t h e ‘t ot alit y of t h e
cir c u mst a n c es,’ ” i n cl u di n g t h e d et ai ni n g offi c ers’ e x p eri e n c es a n d tr ai ni n g, t o d et er mi n e w h et h er
t h e y h a d “ a ‘ p arti c ul ari z e d a n d o bj e cti v e b asis’ f or s us p e cti n g l e g al wr o n g d oi n g. ” I d. ( q u oti n g
U nit e d St at es v. C ort ez , 4 4 9 U. S. 4 1 1, 4 1 7– 1 8 ( 1 9 8 1)). N o “ n e at s et of l e g al r ul es ” c a n b e us e d t o
d et er mi n e w h et h er a r e as o n a bl e s us pi ci o n e xis t e d. I d. at 2 7 4.

M or e t h a n a “ h u n c h, ” b ut l ess t h a n

pr o b a bl e c a us e, is r e q uir e d. U nit e d St at es v. S o k ol o w , 4 9 0 U. S. 1, 7 ( 1 9 8 9). A s us pi ci o us stri n g
of s e p ar at el y -i n n o c e nt a cts c a n b e e n o u g h t o j ustif y a st o p. Ar viz u , 5 3 4 U. S. at 2 7 4– 7 5; s e e als o
S o k o l o w, 4 9 0 U. S. at 9– 1 0; T err y , 3 9 2 U. S. at 2 2.
T h e u n d ersi g n e d fi n ds t h at t h e offi c ers w er e j ustifi e d i n i niti ati n g t h e st o p. T h e fr uit of t h e
i n v esti g ati o n at t h at ti m e w as a n “ o bj e cti v e m a nif est ati o n ” t h at S h e c kl es w as “ e n g a g e d i n cri mi n al
a cti vit y. ” S e e C ort ez , 4 4 9 U. S. at 4 1 7 . T h e i nf or m ati o n k n o w n b y t h e offi c ers g a v e t h e m e n o u g h
of a n arti c ul a bl e s us pi ci o n t o st o p S h e c kl es a n d i n v esti g at e f urt h er. “ T h e F o urt h A m e n d m e nt d o es
n ot r e q uir e a p oli c e m a n w h o l a c ks t h e pr e cis e l e v el of i nf or m ati o n n e c ess ar y f or pr o b a bl e c a us e t o
arr est t o si m pl y s hr u g his s h o ul d ers a n d all o w a cri m e t o o c c ur or a cri mi n al t o es c a p e. ” A d a ms v.
O n e offi c er t estifi e d t h at S h e c kl es w a s s p e e di n g. ( P a g eI D # 2 4 4.) B ut h e als o t estifi e d t h at t h e st o p w as
a n i n v esti g ati v e st o p, n ot a tr affi c st o p. (P a g eI D # 2 6 1 .) N o tr affi c c h ar g es w er e fil e d. (P a g eI D # 2 5 0 .)
3

8

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 9 of 1 5 P a g eI D #: 4 1 2

Willi a ms , 4 0 7 U. S. 1 4 3, 1 4 5 ( 1 9 7 2). E v e n t h o u g h t h e a p art m e nt s e ar c h w arr a nts h a d n ot y et b e e n
si g n e d, st o p pi n g S h e c kl es w as a r e as o n a bl e i nt er m e di at e r es p o ns e gi v e n t h e cir c u mst a n c es.
D u r ati o n of t h e St o p
W h e n t h e offi c ers a p pr o a c h e d S h e c kl es, h e w as visi bl y a git at e d.

H e d e ni e d a n y c o nt a ct

wit h t h e Cr es c e nt C e ntr e, d es pit e h a vi n g j ust l eft t h er e. ( P a g eI D # 2 4 6, 2 4 9.) At s o m e p oi nt, h e
w as h a n d c uff e d.

4

( P a g eI D # 2 4 6– 4 7.) A n offi c er

m o v e d S h e c kl es’s v e hi cl e o ut of tr affi c’s w a y.

( P a g eI D # 2 5 2– 5 3.) S o m e offi c ers s m ell e d m arij u a n a e m a n ati n g fr o m S h e c kl es’s v e hi cl e, a n d
t h e y r e q u est e d a dr u g c a ni n e. ( P a g eI D # 2 4 4, 2 5 5.) S h e c kl es w as d et ai n e d f or a p pr o xi m at el y 4 5
mi n ut es w hil e t h e y w ait e d f or t h e d o g t o arri v e. ( P a g eI D # 2 2 6– 2 7, 2 5 3 – 5 4.) W h e n t h e d o g
s c a n n e d t h e v e hi cl e, n o m arij u a n a w as f o u n d, b ut offi c ers di d fi n d a Gl o c k pist ol i n t h e c e nt er
c o ns ol e. ( P a g eI D # 2 4 6, 2 5 6 – 5 7.) S h e c kl es w as t h e n pl a c e d u n d er arr est. ( P a g eI D # 1 9 6.)
S h e c kl es ar g u es t h at t h e offi c ers h a d n o b asis t o k e e p S h e c kl es w aiti n g s o l o n g f or t h e dr u g
d o g. I n s u p p ort, h e p oi nt s o ut t h at o n e offi c er di d n’t r e p ort s m elli n g m arij u a n a d uri n g S h e c kl es’s
pr eli mi n ar y h e ari n g a n d t h at n o n e w as f o u n d i n t h e c ar. ( D N 7 0, P a g eI D # 3 7 1.) T h e U nit e d
St at es ar g u es t h at b e c a us e t h e st o p w as i n v esti g ati v e a n d n ot a r o uti n e tr affi c st o p, t h e w aiti n g
p eri o d “ w as si m pl y p art of t h e i n v esti g ati o n a n d n ot a n u nr e as o n a bl e d el a y. ” ( D N 7 3, P a g eI D #
3 9 0.)

T h e pr os e c uti o n als o ass erts t h at S h e c kl es’s a g gr a v at e d d e m e a n or, his f als e d e ni al of

k n o wl e d g e a b o ut Cr es c e nt C e ntr e, t h e s m ell of m arij u a n a, a n d his pri or dr u g c o n vi cti o n j ustifi e d
t h e v e hi cl e s e ar c h. ( P a g eI D # 3 8 8 – 8 9.)
L a w e nf or c e m e nt m a y n ot e xt e n d a r o uti n e tr affi c st o p t o w ait f or a dr u g d o g. R o dri g u ez
v. U nit e d St at es , 1 3 5 S. Ct. 1 6 0 9, 1 6 1 4 ( 2 0 1 5).

B ut tr affi c st o ps ar e a b o ut tr affi c vi ol ati o ns—

I n his p ost-h e ari n g bri ef, S h e c kl es ar g u es t h at his st at e m e nts m a d e d uri n g t h e st o p s h o ul d b e s u p pr ess e d
b e c a us e h e w as n’t mir a n di z e d b ef or e offi c ers q u esti o n e d hi m . (D N 7 0, P a g eI D # 3 7 1.) B ut t h e U nit e d
St at es d o es n ot i nt e n d t o a d mit a n y of t h os e st at e m e nts at tri al. ( D N 7 3, P a g eI D # 3 7 9 – 8 0.) T h er ef or e, t his
iss u e is m o ot.
4

9

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 0 of 1 5 P a g eI D #: 4 1 3

i n v esti g ativ e st o ps ar e a diff er e nt m att er e ntir el y. “[ A] n offi c er c a n e xt e n d a st o p w h er e s o m et hi n g
t h at o c c urr e d d uri n g t h e st o p c a us e d t h e offi c er t o h a v e a r e as o n a bl e a n d arti c ul a bl e s us pi ci o n t h at
cri mi n al a cti vit y w as af o ot. ” U nit e d St at es v. Z u ni g a , 6 1 3 F. Ap p’ x 5 0 1, 5 0 7 ( 6t h Cir. 2 0 1 5)
(i nt er n al q u ot ati o ns o mitt e d); s e e als o U nit e d St at es v. Pl a c e , 4 6 2 U. S. 6 9 6, 7 0 1– 0 2 ( 1 9 8 3) (s ei z ur e
of l u g g a g e u p o n a n “ arti c ul a bl e s us pi ci o n ”).
T h e u n d ersi g n e d fi n ds t h at t his i n v esti g ati v e st o p w as j ustifi a bl y e xt e n d e d w hil e offi c ers
w ait e d f or t h e dr u g d o g. I n Pl a c e , a 9 0-mi n ut e d el a y w as t o o l o n g u n d er t h e cir c u mst a n c es.

462

U. S. at 7 0 9 – 1 0. S h e c kl es h as pr es e nt e d n o a ut h orit y t o s u p p ort his p ositi o n t h at t h e 4 9-mi n ut e
d el a y i n t his c as e w as t o o s e v er e.

“[ T] h e ulti m at e t o u c hsto n e of t h e F o urt h A m e n d m e nt is

r e as o n a bl e n ess, ” R o dri g u ez , 1 3 5 S. Ct. at 1 6 1 7 ( 2 0 1 5), a n d S h e c kl es’s w ait w as r e as o n a bl e.
F urt h er m or e, t h e offi c ers h a d m or e t h a n a s us pi ci o n w h e n t h e y r e q u est e d t h e dr u g d o g — t h e s m ell
of m arij u a n a a n d t h e ot h er i nf or m ati o n t h e y h a d r e g ar di n g S h e c kl es’s r e c e nt a cti vit y “ pr o vi d e d
t h e m wit h pr o b a bl e c a us e t o s e ar c h t h e v e hi cl e wit h o ut a s e ar c h w arr a nt. ” U nit e d St at es v. F ost er ,
3 7 6 F. 3 d 5 7 7, 5 8 8 ( 6t h Cir. 2 0 0 4).

T h e f a ct t h at o n e t estif yi n g offi c er di d n’t r e c all s m elli n g

m arij u a n a d o es n ot n e g at e t h e t esti m o n y of a n ot h er offi c er w h o di d.
I V. T H E S T O R A G E U NI T
L astl y i n his fir st m oti o n, S h e c kl es c h all e n g es t h e p ur p ort e d c o ns e nt s e ar c h of a st or a g e
u nit.

S e v er al offi c ers a n d Crist al Fl or es, S h e c kl es’ s girlfri e n d, t estifi e d d uri n g t h e t w o-d a y

e vi d e nti ar y h e ari n g. ( D Ns 5 6, 5 9.) W hil e t h e y a gr e e d a b o ut t h e g e n er al cir c u mst a n c es of t h e
T err a c e Cr e e k s e ar c h, t h e y pr es e nt e d c o nfli cti n g a c c o u nts of t h eir c o n v ers ati o ns i nsi d e a n d t h e
cir c u mst a n c es of Fl or es’ s s u p p os ed c o ns e nt t o t h e st or a g e u nit s e ar c h.

10

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 1 of 1 5 P a g eI D #: 4 1 4

U n dis p ut e d F a cts
W hil e t h e Cr es c e nt C e ntr e s e ar c h w as

still o n g oi n g, ot h er offi c ers e x e c ut e d t h e s e c o n d

w arr a nt at T err a c e Cr e e k. It w as t h e mi d dl e of t h e ni g ht. Fl or es w as pr e g n a nt a n d asl e e p al o n gsi d e
h er si x -y e ar -ol d d a u g ht er. ( P a g eI D # 2 0 7 – 0 8, 3 1 1 – 1 2 .) A p pr o xi m at el y ei g ht t o t w el v e offi c ers
e nt er e d t h e a p art m e nt wit h g u ns dr a w n. ( P a g eI D # 2 0 7 – 0 8, 2 8 9 – 9 0 , 3 1 1– 1 2 .) T h e y or d er e d Fl or es
t o g et o n t h e gr o u n d. S h e o nl y m a d e it o nt o h er k n e es.

W h e n s h e e x pl ai n e d t h at s h e w as pr e g n a nt,

th e offi c ers t ol d h er t o g et b a c k u p, h olst er e d t h eir w e a p o ns, a n d t ur n e d t h e b e dr o o m li g hts o n.
( P a g eI D # 3 1 0, 3 1 2.)
T h e o ffi c ers q u esti o n e d Fl or es first i n t h e b e dr o o m a p art fr o m h er d a u g ht er, t h e n l at er i n
t he li vi n g r o o m. ( P a g eI D # 2 0 7 – 0 8, 2 4 8.) T h e y ass ur e d h er t h at s h e w as n’t t h e t ar g et of t h e
i n v esti g ati o n.

( P a g eI D # 2 8 2.)

T h e y l e ar n e d t h at s h e h a d d at e d a n d li v e d wit h S h e c kl es

c o nti n u o usl y f or s e v er al y e ars, a n d t h at S h e c kl es w o ul d b e t h e f at h er of h e r e x p e ct e d c hil d.
( P a g eI D # 3 1 0, 3 1 9 – 2 0.)
W hil e s e ar c hi n g t h e a p art m e nt, offi c ers f o u n d d o c u m e nts wit h a u nit n u m b er

a n d g at e

a c c ess c o d e f or a s elf-st or a g e f a cilit y. ( P a g eI D # 2 8 3.) T h e y pr es e nt e d t h e m t o Fl or es a n d as k e d
a b o ut t h e u nit. R o u g hl y t w o h o urs aft er t h e offi c ers’ i niti al e ntr y, Fl or es si g n e d a f or m c o ns e nti n g
t o a s e ar c h of t h e u nit. ( P a g eI D # 1 9 7, 2 8 4, 3 1 4 – 1 5.)
Fi n di n gs of F a ct
A c c or di n g t o t h e offi c ers’ t esti m o ni es , Fl or es w as ni c e, c o o p er ati v e a n d p olit e.

S he

e x pr ess e d r eli ef t h at S h e c kl es’s dr u g a cti vit y w as c o mi n g t o a n e n d. T h e e n vir o n m e nt w as n ot
h ostil e or c o er ci v e. ( P a g eI D # 1 9 8.) T h o u g h s h e di d n’t pr o vi d e a k e y t o t h e st or a g e u nit, s h e s ai d
t h at s h e h a d visit e d it. ( P a g eI D # 2 9 1– 9 2.) S h e als o d es cri b e d pr o p ert y of h ers —s o m e cl ot h es
a n d s o m e m o n e y f or h er c hil dr e n — t h at c o ul d b e f o u n d i n t h e st or a g e u nit. ( P a g eI D # 1 9 7, 2 8 3.)

11

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 2 of 1 5 P a g eI D #: 4 1 5

W h e n offi c ers t ol d Fl or es t h at t h e y h a d r e c o v er e d h er oi n at t h e Cr es c e nt C e ntr e, s h e r e c all e d t h at
S h e c kl es h a d r e c e ntl y r etri e v e d $ 4 0, 0 0 0 fr o m t h e st or a g e u nit a n d c o u nt e d it o n t h eir b e d at T err a c e
Cr e e k. S h e s p e c ul at e d t h at S h e c kl es h a d us e d t h at m o n e y t o p ur c h as e t h e h er oi n. ( P a g eI D # 2 8 3.)
A c c or di n g t o Fl or es ’s t esti m o n y, s h e d e ni e d h a vi n g a n y k n o wl e d g e of or a ut h orit y t o
a c c ess t h e st or a g e u ni t. ( P a g eI D # 3 1 3, 3 1 6.) S h e n e v er m e nti o n e d a n y cl ot h es or m o n e y t h at
c o ul d b e f o u n d i n t h e u nit. ( P a g eI D # 3 1 6, 3 2 1.) S h e cl ai m e d t h at s h e o nl y si g n e d t h e c o ns e nt
f or m u n d er d ur ess:
“I m e a n, I di d n’t k n o w w h at I w as si g ni n g at t h e ti m e. I di d n’t k n o w I w as
si g ni n g a c o ns e nt f or m at t h e ti m e. I m e a n, I si g n e d it b e c a us e I w a nt e d t h e m t o
j ust l e a v e m y a p art m e nt. I w a nt e d t o g et e v er yt hi n g o v er wit h. . . . B e c a us e t h er e
w as j ust s o m a n y of t h e m a n d I w as pr e g n a nt a n d I w as a n xi o us. I w as n er v e — n ot
n er v o us, b ut m y a n xi et y. I j ust w a nt e d e v er yt hi n g — e v er y b o d y t o l e a v e m y h o us e. ”
( P a g eI D # 3 1 5.) T h e u n d ersi g n e d fi n ds t h at t h e offi c ers’ t esti m o ni es ar e m or e cr e di bl e
t h a n Fl or es’s t esti m o n y f or t w o m ai n r e as o ns. First, t h e offi c ers’ a c c o u nts ar e c orr o b or at e d, n ot
o nl y b y e a c h ot h er, b ut b y t h eir s e ar c h of t h e st or a g e u nit.

Wit hi n t h e u nit, t h e y f o u n d t h e cl ot h es

a n d m o n e y w hi c h s h e h a d d es cri b e d at T err a c e Cr e e k, as w ell as a s e p ar at e l ar g e s u m of c as h.
( P a g eI D # 1 9 7, 2 8 4– 8 5.) A n d s e c o n d, as t h e U nit e d St at es p oi nts o ut, Fl or es’s i nt er ests i n t h e
o ut c o m e of t his c as e ar e s e v er e. S h e c kl es is h er si g nifi c a nt ot h er, t h e f at h er of o n e of h er c hil dr e n,
a n d h er s o ur c e of fi n a n ci al s u p p ort. ( D N 7 3, P a g eI D # 3 9 1.) T h e f oll o wi n g l e g al a n al ysis is b as e d
o n t his cr e di bilit y d et er mi n ati o n.
C o ns e nt t o S e a r c h
S h e c kl es first ar g u es t h at Fl or es di d n ot h a v e a n y a ut h orit y t o c o ns e nt t o t h e s e ar c h. ( D N
3 3, P a g eI D # 1 2 0.) H e f urt h er ar g u es t h at h er c o ns e nt w as n ot fr e el y or v ol u nt aril y gi v e n b e c a us e
t h e e n vir o n m e nt of t h e T err a c e Cr e e k s e ar c h w as c o er ci v e. 5 ( D N 7 0, P a g eI D # 3 7 2– 7 3.) T h e
S h e c kl es als o ar g u es t h at Fl or es’s c o ns e nt is a ut o m ati c all y i n v ali d b e c a us e it w as c o n v e y e d d uri n g t h e
T err a c e Cr e e k a p art m e nt s e ar c h , w hi c h h e cl ai ms w as u n c o nstit uti o n al. ( D N 3 3, P a g eI D # 1 2 0.) As
5

12

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 3 of 1 5 P a g eI D #: 4 1 6

U nit e d St at es m ai nt ai ns t h at “ Fl or es h a d a p p ar e nt a ut h orit y t o c o ns e nt t o t h e st or a g e u nit s e ar c h
a n d c o ns e nt e d t o t h e s e ar c h fr e el y a n d v ol u nt aril y wit h o ut c o er ci o n. ” ( D N 7 3, P a g eI D # 3 9 1 .)
C o ns e nt t o a s e ar c h is “ o n e of t h e s p e cifi c all y est a blis h e d e x c e pti o ns t o t h e r e q uir e m e nts
of b ot h a w arr a nt a n d pr o b a bl e c a us e. ” S c h n e c kl ot h v. B ust a m o nt e , 4 1 2 U. S. 2 1 8, 2 1 9 ( 1 9 7 3).
W h er e s o m e o n e ot h er t h a n t h e d ef e n d a nt h as p ur p ort e dl y c o ns e nt e d t o a s e ar c h, t h e pr os e c uti o n
m ust s h o w t w o t hi n gs: First, t h at s h e p oss ess e d “ eit h er a ct u al or a p p ar e nt a ut h orit y o v er t h e it e m
or pl a c e t o b e s e ar c h e d. ” U nit e d St at es v. P ur c ell , 5 2 6 F. 3 d 9 5 3, 9 6 1 ( 6t h Cir. 2 0 0 8); s e e als o
G e or gi a v. R a n d ol p h , 5 4 7 U. S. 1 0 3, 1 0 6 ( 2 0 0 6).

S u c h a ut h orit y r ests o n “ m ut u al us e of t h e

pr o p ert y b y p ers o ns g e n er all y h a vi n g j oi nt a c c ess or c o ntr ol f or m ost p ur p os es. ” U nit e d St at es v.
M atl o c k , 4 1 5 U. S. 1 6 4, 1 7 2 n. 7 ( 1 9 7 4). A n d s e c o n d, t h at h er c o ns e nt “ w as fr e el y a n d v ol u nt aril y
gi v e n. ” Fl ori d a v. R o y er , 4 6 0 U. S. 4 9 1 at 4 9 7 ( 1 9 8 3). T h e q u esti o n of v ol u nt ari n ess “is a q u esti o n
of f a ct t o b e d et er mi n e d fr o m t h e t ot alit y of all t h e cir c u mst a n c es. ” S c h n e c kl ot h , 4 1 2 U. S. at 2 2 7.
T h e u n d ersi g n e d fi n ds t h at Fl or es h a d b ot h a ct u al a n d a p p ar e nt a ut h orit y t o c o ns e nt t o t h e
s e ar c h. T h e st or a g e f a cilit y ’s r e c or ds i n di c at e t h at s h e w as a ut h ori z e d t o a c c ess t h e u nit. 6 ( P a g eI D
# 1 9 9, 2 0 2, 2 0 9 – 1 0.) S h e t h er ef or e h a d j oi nt a c c ess a n d c o ntr ol o v er t h e u nit at t h e ti m e of t h e
T err a c e Cr e e k s e ar c h. F urt h er m or e, h er d es cri pti o ns of it e ms w hi c h s h e w as k e e pi n g i n t h e u nit
c a us e d t h e offi c ers t o r e as o n a bl y b eli e v e t h at s h e a n d S h e c kl es m a d e m ut u al us e of t h e u nit.
T h e u n d ersi g n e d f urt h er fi n ds t h at Fl or es’ s c o ns e nt t o t h e s e ar c h w as fr e e l y a n d v ol u nt ar ily
gi v e n . H er e n c o u nt er wit h t h e offi c ers at T err a c e Cr e e k w as st artli n g, t o s a y t h e l e ast — t h e y w o k e
h er u p wit h t h eir w e a p o ns dr a w n a n d iss u e d c o m m a n ds t o h er. B ut t h os e i niti al dis pl a ys of f or c e,

dis c uss e d a b o v e, t h at s e ar c h w as pr o p er . T h er ef or e, s u bst a nti v e a n al ysis of Fl or es’ s c o ns e nt t o t h e st or a g e
u nit s e ar c h m ust t a k e pl a c e.
6
T h e U nit e d St at es r e c ei v e d t h e f a cilit y’s “ C ust o m er I nf or m ati o n S h e et ” vi a s u b p o e n a, aft er t h e st or a g e
u nit s e ar c h t o o k pl a c e. ( P a g eI D # 1 9 9.) T h e C o urt t o o k t h e d o c u m e nt u n d er s u b missi o n d uri n g t h e first
d a y of t h e e vi d e nti ar y h e ari n g ( P a g eI D # 1 9 8 – 2 0 0), b ut it w as n e v er a ct u all y e nt er e d as a n e x hi bit. O nl y
t esti m o n y a b o ut t h e d o c u m e nt is i n t h e r e c or d.

13

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 4 of 1 5 P a g eI D #: 4 1 7

w hi c h w er e n ot u n or di n ar y m e as ur es f or offi c ers e x e c uti n g a s e ar c h w arr a nt , t o o k pl a c e l o n g
b ef or e Fl or es si g n e d t h e c o ns e nt f or m.

E v e nts cl os er t o h er writt e n c o ns e nt w er e m u c h m or e

c or di al. As Fl or es a d mitt e d d uri n g t h e h e ari n g, n o offi c ers t hr e at e n e d or y ell e d at h er. ( P a g eI D #
3 2 1.) T h e y e x pl ai n e d t h at s h e w as n’t a t ar g et of t h e i n v esti g ati o n, a n d t h e y s p o k e c al ml y wit h h er
f or a l e n gt h y p eri o d of ti m e. C o nsi d eri n g t h e t ot alit y of t h e cir c u mst a n c es, t h e e n vir o n m e nt of t h e
T err a c e Cr e e k s e ar c h w as n ot u n d ul y c o er ci v e. A c c or di n gl y, Fl or es’ s c o ns e nt w as v ali d, a n d t h e
st or a g e u nit s e ar c h w as c o nstit uti o n al.
V. T H E S EI Z E D P H O N E S
I n M ar c h 2 0 1 7, S h e c kl es w as att a c k e d a n d s h ot o utsi d e his h o m e.

W hil e h e r e c ei v e d

m e di c al att e nti o n, offi c ers s ei z e d t w o c ell p h o n es t h at w er e f o u n d o n his p ers o n.

T h e y l at er

o bt ai n e d a s e ar c h w arr a nt t o e x a mi n e t h e p h o n es. ( D N 6 8, P a g eI D # 3 6 0 – 6 1.)
I n his s e c o n d m oti o n t o s u p pr ess, S h e c kles c h all e n g es t h e s e ar c h es of t w o c ell p h o n es. I n
its r es p ons e, t h e U nit e d St at es dis cl os es t h at it d o es n ot i nt e n d t o i ntr o d u c e t h e e vi d e n c e o bt ai n e d
fr o m t h e p h o n es at tri al. A c c or di n gl y, t h e m oti o n t o s u p pr ess is m o ot.
F or t h e f or e g oi n g r e as o ns, t h e u n d ersi g n e d M a gistr at e J u d g e R E C O M M E N D S as f oll o ws:
1) T h at S h e c kl es’ s first m oti o n t o s u p pr ess ( D N 3 3) b e D E NI E D .
2) T h at S h e c kl es’ s s e c o n d m oti o n t o s u p pr ess ( D N 6 8) b e D E NI E D as m o ot .

N oti c e

a n u ar y 225,
5, 22019
019
JJanuary

P urs u a nt t o 2 8 U. S. C. § 6 3 6( b)( 1)( B) – ( C), t h e a b o v e -si g n e d M a gistr at e J u d g e h er e b y fil es
wit h t h e C o urt t h e i nst a nt fi n di n gs a n d r e c o m m e n d ati o ns. A c o p y s h all f ort h wit h b e el e ctr o ni c all y
14

C a s e 3: 1 7- cr- 0 0 1 0 4- R G J

D o c u m e nt 7 8

Fil e d 1 1/ 2 0/ 1 8

P a g e 1 5 of 1 5 P a g eI D #: 4 1 8

tr a ns mitt e d or m ail e d t o all p arti es. 2 8 U. S. C. § 6 3 6( b)( 1)( C). Wit hi n f o urt e e n ( 1 4) d a ys aft er
b ei n g s er v e d, a p art y m a y s e r v e a n d fil e s p e cifi c writt e n o bj e cti o ns t o t h es e fi n di n gs a n d
r e c o m m e n d ati o ns. F E D . R. C RI M . P. 5 9( b)( 2). F ail ur e t o fil e a n d s er v e o bj e cti o ns t o t h es e fi n di n gs
a n d r e c o m m e n d ati o ns c o nstit ut es a w ai v er of a p art y’s ri g ht t o a p p e al. I d.; U nit e d St at es v .
W alt ers , 6 3 8 F. 2 d 9 4 7, 9 4 9 – 5 0 ( 6t h Cir. 1 9 8 1); s e e als o T h o m as v. Ar n, 4 7 4 U. S. 1 4 0 ( 1 9 8 5).
c c: C o u ns el of r e c or d

15

